<html>
<title> - YOUR TROOPS: THEIR STORIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 109-93]
 
                       YOUR TROOPS: THEIR STORIES

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 3, 2005

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                     U.S. GOVERNMENT PRINTING OFFICE

32-992 PDF                 WASHINGTON DC:  2007
------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK E. UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
                Miriam Wolff, Professional Staff Member
                 Debra Wada, Professional Staff Member
                  Catherine Steadman, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2005

                                                                   Page

Hearing:

Thursday, November 3, 2005, Your Troops: Their Stories...........     1

Appendix:

Thursday, November 3, 2005.......................................    43
                              ----------                              

                       THURSDAY, NOVEMBER 3, 2005
                       YOUR TROOPS: THEIR STORIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Abrams, Col. Robert, Chief of Staff, 1st Cavalry Division, U.S. 
  Army...........................................................     6
Citola, Command Sgt. Maj. Neil, Command Sgt. Maj., III Corps.....     8
Kelly, Brig. Gen. John F., Legislative Assistant to the 
  Commandant, U.S. Marine Corps..................................     4

                                APPENDIX

Prepared Statements:

    Skelton, Hon. Ike............................................    47

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
                       YOUR TROOPS: THEIR STORIES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, November 3, 2005.
    The committee met, pursuant to call, at 8:36 a.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order. This 
morning, the committee will receive testimony from three 
distinguished members of our armed forces who participated in 
Operation Iraqi Freedom.
    And I would like to welcome Brigadier General John F. 
Kelly, United States Marine Corps, Legislative Assistant to the 
Commandant.
    General Kelly, thank you for being with us.
    Colonel Robert Abrams, United States Army, Chief of Staff, 
1st Cavalry Division.
    Thank you, Colonel, for being with us today.
    And Command Sergeant Neil Citola, United States Army, 
Command Sergeant Major, III Corps.
    General Kelly served as Former Assistant Division Commander 
of the 1st Marine Division, which was deployed to the Al Anbar 
Province. Colonel Abrams and Command Sergeant Major Citola both 
served with the 1st Cavalry Division in Baghdad.
    I thought it might be interesting, we cover a broad range 
of issues in this committee, because our jurisdiction is very 
broad. It goes to the full reach of national security and the 
armed services, and we had yesterday, for example, a hearing on 
our acquisition system, which is very important to the future 
of our defense posture.
    But sometimes it is important to talk not about programs 
and schedules and weapons but to talk about people, the men and 
women who serve in the uniformed services of our country, and 
extend and project American power around the world and 
especially in the war-fighting theaters that we are presently 
focused on: Iraq and Afghanistan.
    But along with extending this power and fighting for our 
country on the battlefield, they also are great ambassadors for 
our country. And one reason after any conflict and often during 
conflicts people can't wait to get to the United States from 
whatever theater we happen to be engaged in, that is a result 
of the fact that they get to know Americans and they understand 
after a while that Americans are darn good people, and they 
want to come be with us. That is largely a result of the 
contact that they have with the men and women of our uniformed 
services.
    Our folks have done extraordinary things, and I have 
reviewed a number of the citations for valor that have been 
issued as a result of battlefield activities, and I think it is 
time for our country to know really more about the people side 
of this current conflict that is taking place in Iraq and 
Afghanistan.
    So thank you for being with us today, gentlemen. We 
appreciate your appearance and we look forward to hearing about 
your own firsthand experiences on the ground in Iraq.
    Many of us here have visited Iraq. We have been honored to 
speak to the folks that are serving there. In fact, around the 
perimeter of this room, you can see photographs that chronicle 
our Armed Services Committee members meeting with the troops 
during these trips.
    And I am proud of our members. Everybody on our committee 
has been over into the war-fighting theaters, many of them 
multiple times. Mr. Reyes, for example, has been to Iraq and 
Afghanistan I believe in excess of nine visits.
    How many, Silvestre?
    Mr. Reyes. Five to Iraq and five to Afghanistan.
    The Chairman. Five to Iraq and five to Afghanistan. And I 
think that reflects the great dedication that our members have 
to the folks that wear the uniform.
    There has been a lot of progress in Iraq. Within the last 
several weeks we are all familiar with the election, the 
national referendum to adopt a new constitution. We are also 
familiar with the fact that the Iraqi security forces continue 
to grow. And for people who want an exit strategy, the exit 
strategy is the standup of the Iraqi military to the point 
where they can protect their government from the insurgency.
    Currently, there are 206,500 Iraqi security forces who have 
been trained and equipped, including 99,000 Ministry of Defense 
forces and 107,000 in the Ministry of Interior forces. The 
control key cities, such as Najaf, formerly a real hotspot for 
our troops where we battled last year, and in addition, they 
control key districts in Baghdad, such as Sadr City, and have 
taken control of about 87 square miles of Baghdad.
    American and coalition forces serving in Operation Iraqi 
Freedom have been instrumental in the progress that we see 
today. They have helped to ensure the safety of polling places 
as well as rebuilding numerous schools. They have deterred 
suicide bombings, they have helped to complete critical water 
and sewage projects, they have apprehended terrorists, 
uncovered and ceased massive weapons caches, improved and built 
health facilities.
    And, clearly, the efforts of our troops have gone a long 
way toward securing and rebuilding a country that was destroyed 
by a dictator. But we don't always hear that story inside the 
Beltway, but the American people need to hear it. They can't 
possibly understand the whole picture in Iraq without the 
perspective of the soldiers serving there.
    And, gentlemen, that is why we have asked you to be here 
today to describe your experiences and help us build a complete 
picture of the situation. And, also, I would like to hear you 
talk a little bit about individual soldiers and marines and 
their activities and their efforts on behalf of our nation. So 
thanks for being with us today. We appreciate it.
    And before we go further, I would like to yield to my 
partner on this committee, the gentleman from Missouri, Mr. 
Skelton, for any remarks he would like to make.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you very much. This proves 
to be an excellent hearing. I ask that my prepared statement be 
put in the record in its entirety.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 47.]
    The Chairman. Without objection.
    And, incidentally, Mr. Skelton and I want you to know, 
right now, as we have this hearing, we have about a dozen other 
activities scheduled for Republicans and Democrats in this 
Capitol, so people will come and go, but you understand that, 
and don't let it bother you.
    I yield to the gentleman.
    Mr. Skelton. Thank you. This is an excellent opportunity 
for us as well as the American people to understand what 
conflict is like.
    Of course, we have all been to Iraq, to Afghanistan, and I 
remember very well, General Kelly, visiting with you in the 
shadows of Babylon for my very first trip to Iraq and the 
excellent briefing you gave us in that outdoor court, on that 
hot day. And we thank you for being with us.
    Command Sergeant Major Citola, thank you for your service 
and for being with us. We look forward to your comments.
    It is a special treat to welcome, Mr. Chairman, Colonel 
Bruce Abrams, a member of one of the most outstanding military 
families our country has produced, the famous Abrams family. 
And you are following in your father's and two brother's 
footsteps, so we thank you for joining us today.
    We look forward to the stories that you have to tell us, 
the sacrifices. It appears, in many respects, the only ones 
that are really sacrificing in the war in Iraq or the fight 
against terrorism, which has a genesis in Afghanistan, are 
those in uniform and their families, and we look forward to 
hearing you.
    While you share these stories, gentlemen, I hope you can 
give an insight as to what Congress can do to better help in 
the war effort. Was your pre-deployment training adequate? Did 
you have the equipment that you needed? Did you have all the 
Marines and all the soldiers you need in the right ranks and 
the right skills? What problems did your families face when you 
came home? All of these questions will be quite helpful to this 
committee if you would furnish the answers along with telling 
us what the real challenges are on the battlefield.
    So, Mr. Chairman, we welcome and thank them for being with 
us.
    The Chairman. Well, I thank the gentleman.
    And why don't we start with General Kelly. And, General 
Kelly, we titled this hearing, ``Your Army and Your Marines.'' 
Tell us about our Marines.

STATEMENT OF BRIG. GEN. JOHN F. KELLY, LEGISLATIVE ASSISTANT TO 
               THE COMMANDANT, U.S. MARINE COPRS

    General Kelly. Sir, a pleasure to be here, certainly, and a 
good morning to you and Mr. Skelton and the other distinguished 
members of the committee. As I say, an honor to be here. 
Nothing I like more than talking about great Marines and great 
sailors who are putting their lives on the line as we speak.
    Just to frame my own experiences, I deployed almost 3 years 
ago to Iraq, actually to Kuwait, and for the next 2 or 3 months 
sat just below the border between Iraq and Kuwait as we 
continued to build up and waited for our political masses to 
decide what we were going to do, and, ultimately, of course, we 
crossed the line of departure on the 20th of March in 2003.
    Fighting with us that day on our move toward Baghdad was 
the 1st U.K. Division on our right and the magnificent 3rd 
Infantry Division on our left. About 3 weeks later, we found 
ourselves in Baghdad after a relatively, I wouldn't say easy 
time, but a relatively casualty-free period on the way up to 
Baghdad, and, literally, on less than 24 hours notice, we 
pushed on--the 1st Marine Division, that is, pushed on up to a 
place called Tikrit, about another 140 miles, and then further 
again to a place called Bayji, about 40 miles beyond that.
    At that point in time, we were about 650 miles from the 
Persian Gulf, and, as you would imagine, soldiers of the sea 
that Marines are, we were pretty nervous being that far away 
from the ocean. But 650 road miles in just over 3 weeks.
    The fall of Baghdad and as peace began to--certainly, we 
went into a lull period. We were moved south, that is, the 1st 
Marine Division moved south of Baghdad, and we assumed the area 
of operation around Karbala, Najaf, Iskandariyah, northern 
Babil province, Babylon and Hillah and stayed there until 
October when we went home after turning the whole region over 
to the 1st Polish Division, made up of a number of our allies.
    In any event, I went back in--got home in October, went 
back in on a couple of site surveys a couple weeks at a time 
and then permanently back in in February where we began the 
process of turning over the Al Anbar province from the 82nd 
Airborne Division and General Chuck Swannack, the Commanding 
General.
    We continued the buildup and the turnover on the second 
iteration until we actually took the area of responsibility 
(AOR), and this AOR includes where we are today, Al Anbar, 
Fallujah, Ramadi, Husaybah, Al Qaim, places like that; they are 
in the news every day. We took over toward the end of March in 
2004 and I remained there until August, about a year ago, when 
I came out.
    In all of my experiences, both tours, and all of the 
Improvised Explosive Device (IED) attacks I either observed or 
came up immediately after they happened, all the gun fights I 
observed, I never once saw one of these young Americans--and 
many of these young Americans include soldiers that were 
working with us--I never saw one of them hesitate. Did not 
matter how much fire was applied, they went into their 
immediate action drills and did exactly what they were expected 
to do and exactly what they are trained to do.
    But unless you have been there, as you well know, Mr. 
Chairman, unless you have been there, the last thing you want 
to do when that kind of fire, when any kind of fire is coming 
at you, that kind of danger that you can't imagine unless you 
have experienced it, the last thing you want to do is get up 
and move, but they do. And it never ceases to amaze me, never 
ceased to amaze me that I never saw one single soldier, sailor 
or Marine hesitate, and I don't add airmen to that, because I, 
in our particular zone, never saw them.
    Who are they? They are regular people, regular guys and 
gals. Average age is about 19 or 20 years old. They only make 
about $13,000 a year. They come, generally, from the working 
class of our nation. I can talk only for Marines here when I 
say that they are generally looking for adventure, to get out 
of whatever they are involved in back home and just get out 
there and see a little bit of the world. After 9/11, they are 
certainly looking to pay back the people that did that to us.
    They are more than willing to answer the Nation's call in 
this time of war. We Marines promised them very little other 
than a hard time and some great training. And their parents 
today in the recruiting field, their parents always ask, ``Will 
my son, will my daughter, if he or she enlists in the Marines, 
will they have to go to Iraq,'' and the answer is, ``Yes.'' And 
they are shocked when they get the answer because we say, ``We 
can definitely guarantee in their tour they will go to Iraq.'' 
And they still come.
    This is not their war; it is America's war. Every one of 
them is trained--our Marines, every one of them is trained as a 
riflemen and that pays off. Every one of our officers, 
regardless of Military Occupational Specialty (MOS), is trained 
as an infantry platoon commander.
    Just in closing, sir, these are ordinary people. Those of 
us in uniform are generally just ordinary people. We just do 
extraordinary things. As of right now, in the last 24 hours in 
Iraq, there has been 104 attacks against our forces of various 
sizes, various types. Only 95 produced any casualties. In the 
last 24 hours, 2 Marines have died and 8 have been seriously 
wounded and Medivac'ed.
    As I speak today, we have just under 500 dead Marines from 
hostile fire in Iraq and over 4,500 injured. It is a great 
tribute to the medical care that we have put in place over 
there that 65 percent of those that are wounded return to duty 
within--are not Medivac'ed out, are not considered serious, 
remain in country, where they all want to stay, and return to 
the fight.
    Thank you for your time, sir, and attention.
    The Chairman. Thank you very much, General Kelly.
    Colonel Abrams, thank you, sir, for being with us today.

 STATEMENT OF COL. ROBERT ABRAMS, CHIEF OF STAFF, 1ST CAVALRY 
                      DIVISION, U.S. ARMY

    Colonel Abrams. Sir, thank you. And good morning, Mr. 
Chairman, distinguished members. And I want to thank all of you 
and the committee for your continued and steadfast support of 
our soldiers serving in uniform. And thanks for the opportunity 
to be here today to share with you some good news story from 
our Iraqi theater of operation experience.
    As stated, I am Colonel Abrams. I am currently assigned as 
the chief of staff of the 1st Cavalry Division. I previously 
had the privilege to command the 1st Brigade Combat Team from 
June of 2003 to July of this year when I became the chief.
    I prepared to deploy the brigade combat team of nearly 
3,500 soldiers as part of the 1st Cavalry Division in support 
of Operation Iraqi Freedom (OIF) from March of 2004 to March of 
this year. And as many of you recall, the 1st Cavalry Division 
was the headquarters for Task Force Baghdad, which encompassed 
all of the capital city and the surrounding Baghdad province.
    My particular brigade's area of operation included two of 
the nine districts in Baghdad, on the east side of the Tigris 
River, Sadr City and its lesser known but equally important 
district to its southeast, Nine Nissan. The area encompassed a 
little over 160 square kilometers and had 3.5 million Iraqi 
residents.
    The area is predominantly Shi'ia Iraqis that for over 35 
years of Saddam Hussein's regime were part of the have-nots. 
That part of the city's infrastructure and essential services 
were left to deteriorate for those 35 years while the 
population had grown by 8 times over, making a bad situation 
that much worse.
    The first national elections, on 30 January of 2005, that 
both Command Sergeant Major Citola and I were there for, was 
the highlight of our deployment. And I can tell you that to a 
person in the brigade and certainly in the division, seeing the 
citizens of our area show up in such large numbers confirmed 
for all of us the tremendous determination that a people can 
have when given the hope of democracy and a better future. We 
had over 1 million voters alone voted in our sector, spread 
across 385 polling stations without incident.
    Sir, you mentioned in your opening remarks with regards to 
the Iraqi security forces, and while deployed I had two Iraqi 
army battalions under my tactical control that I was 
responsible for training and employment. Those two battalions 
were formed in March of 2004, about the same time that I 
arrived in country, and I took them over from the 1st Armored 
Division.
    Over the course of a year of training that was led by 60-to 
70-man teams of embedded trainers from my brigade combat team, 
those 2 units made incredible strides in their combat 
capability. They went from platoon to company, to battalion, 
independent level combat operations, all the while 
participating in our combined combat operations for the entire 
year. They served side by side with our soldiers on a daily 
basis.
    One of these battalions was the first Iraq army battalion 
to gain certification for independent operations and was given 
sole responsibility of a portion of my area. And later, right 
before we transitioned with the 3rd Infantry Division, they 
were the basis for the 40th Army Brigade of the Iraqi army 
brigade that took over part of Baghdad in February of this 
year.
    Sir, during our deployment, my brigade combat executed over 
$80 million in projects to improve essential services and the 
well being in both districts. And we oversaw an additional $300 
million in other large-scale infrastructure projects that had 
been coordinated by United States Agency for International 
Development (USAID). We supervised sewer, electric and water 
projects for Sadr City and Nine Nissan, to include conducting 
bidding conferences and coordinating all efforts with our city 
managers.
    Our cleanup program alone dramatically improved the 
appearance of the area, decreased the opportunity for improved 
explosive devices on the roads and most of all employed 15,000 
Iraqi citizens on a daily basis.
    I cannot describe adequately the scene in Sadr City, sector 
11, on 12 December, 2004, when fresh water began flowing from 
the brand new water network, servicing about 100,000 people for 
the first time in that city ever. The rejoicing that day was 
only eclipsed by the joy of election day.
    Sir, throughout our entire tour, leaders at every level in 
the brigade worked side by side with neighborhood and district 
councils as well as tribal and religious leaders to discuss 
everything. The point being here that open dialogue with 
informal and tribal leaders as well as our appointed officials 
was critical to our ability to execute our campaign and remain 
connected with the real pulse and atmospherics of the people.
    The Iraqi men and women in my area were incredibly thankful 
to be rid of Saddam Hussein and extremely thankful for what we 
were doing for their people. We may not have always agreed on 
how we were doing certain things, but our presence was 
certainly always wanted.
    Sir, one note on combat operations. Unlike other areas in 
Baghdad, my primary enemy for the 12-month tour was the militia 
loyal to Muqtada al-Sadr. We had 2 separate and distinct 
periods of over 60 days where we conducted full-scale, high-
intensity combat operations in and around 2.5 million people 
that live in Sadr City, which is a 5-by-7 rectangular-shaped 
suburb of Baghdad.
    We leveraged every asset available to apply lethal fires 
with incredible precision, while at the same time minimizing 
risk of collateral damage and injury to innocent civilians. In 
the end, the militia was exhausted and became so careless in 
their own attacks that they injured more civilians than they 
could ever hope to do to our soldiers. We defeated the militia 
and forced them to no choice but to turn in their weapons and 
stop hostile actions.
    Sir, Sadr City went from the most contentious, most active 
sector in all of Iraq to the quietest during the 12 months our 
soldiers served there. And I am very happy and proud, as you 
mentioned in your remarks, that it has been turned over to the 
Iraqi army brigade.
    Sir, with that much direct high-intensity combat comes 
casualties, and I am forever grateful that I served with such 
remarkable and brave Americans and their families. And their 
sacrifices will never be forgotten, and we will always be in 
their debt.
    But I do need to let you know that while we sustained 
nearly twice the number of wounded in action as the next 
closest brigade combat team in the division, what is more 
remarkable is that during the same period, the 1st Brigade 
Combat Team re-enlisted more soldiers than any other brigade-
sized unit in the Army--an indicator of the tremendous pride 
that our soldiers take in securing an extremely contentious 
sector and making it a better place.
    Sir, security in the region comes not just from the 
application of traditional military force but from sustained 
application of resources across a wide spectrum of activities. 
And, furthermore, security comes from soldiers who treat Iraqis 
with dignity and respect, who act in a professional manner 
whenever they interact with the populous. These soldiers, our 
soldiers, are our best ambassadors as they earn the trust and 
confidence of the Iraqi people, one Iraqi family at a time.
    Our soldiers remain proud and wholly committed to our 
mission of rebuilding Iraq, continue to conduct themselves in a 
manner that should make our nation very proud of their efforts.
    Sir, I thank you again for the opportunity to be here and 
for your continued support of our men and women in uniform. 
Sir, that concludes my formal statement, and I look forward to 
answering anyone's questions. Thank you, sir.
    The Chairman. Thank you, Colonel Abrams.
    Command Sergeant Major Citola, thank you for being with us 
today.

STATEMENT OF COMMAND SGT. MAJ. NEIL CITOLA, COMMAND SGT. MAJ., 
                           III CORPS

    Major Citola. Good morning, sir.
    Mr. Chairman, distinguished members, ladies and gentlemen, 
sir, I have got to tell you, before I start reading this, I am 
honored to be here, but, in particular, I am honored to be a 
member of the armed forces of the United States.
    And that is just not my opinion. I am constantly humbled by 
the perception and the sense of duty that exists across the 
entire spectrum of the entire armed forces of the United 
States. And I am not just talking about the American Army but I 
mean our Marine battle buddies as well.
    Over the last four and a half years, I have had the 
privilege of serving as the command sergeant major of the 2nd 
Brigade Combat Team and then ultimately the 1st Cavalry 
Division. On Monday morning, the 7th of November, 2005, I will 
farewell this great division to assume my duties as the 3rd 
Armor Corps in Fort Hood, command sergeant major.
    The 2nd Brigade Combat Team consisted of 3,200 officers and 
soldiers from across all components of the Army: Active, 
Reserve, National Guard and United States Air Force. The 
brigade formed a vanguard for the remainder of the 1st Cavalry, 
and, as such, initially fell under the operational control of 
the 1st Armored Division, from late January 2004 to the first 
week of April of the same year.
    Our area of operations included all of Baghdad on the west 
side of the Tigris River, with the river forming our eastern 
boundary. The brigade was tasked with executing five lines of 
operations, consisting of infrastructure revitalization, 
governance, security forces training, combat operations 
designed to defeat, neutralize or capture those supporting or 
engaged in insurgency operations.
    In preparation for our responsibilities, the Brigade Combat 
Team (BCT) engaged in an aggressive training program covering 
the entire spectrum of stability and support operations and low 
to high-intensity conflict.
    Sir, could we have trained more? Yes. But could we have 
gone to any greater degree of focus insomuch as our final 
preparations were concerned in preparing ultimately for our 
deployment? I don't think the answer would be yes. I think our 
leaders, sir, did everything that was humanly and materially 
possible to prepare us for combat operations. And my hat is off 
to them.
    We initiated our training program with a short notice 
deployment to the National Training Center where we were 
informed of our future deployment to Iraq, and we continued our 
training up to Thanksgiving of 2003. Families being a critical 
component of all the armed forces, not just the Army, the 
brigade combat team ceased large-scale training in order to 
permit our soldiers the opportunity to spend as much time with 
their loves ones over the holidays prior to deployment.
    From the onset of our preparations for and ultimate 
commitment to the Iraq theater, I marveled at the ability, 
resiliency, character, determination, resolve and discipline of 
our soldiers.
    Being a senior non-commissioned officer of my unit, I am 
charged with, among other things, good order and discipline and 
passing on the heraldry and traditions of the same. To that 
end, I have devoted myself to being a student of history. As 
such, I have come to find that the soldiers that comprise our 
ranks today are every bit as devoted and far more capable than 
those who have served before us.
    This statement is not intended to detract from the history 
of sacrifice our military is renowned for; quite the contrary. 
The American army is an evolutionary institution that today 
reaps a windfall in the form of our nation's youth who possess 
a level of individual capability and mental dexterity that 
continues to surpass each generation that served before it, 
sir.
    As the command sergeant major of the 2nd Brigade Combat 
Team, the 1st Cavalry Division and ultimately Task Force 
Baghdad, I served, worked and fought alongside the combat, 
combat support and combat service support soldiers, the finest 
Army our nation has ever yet fielded.
    I have turned wrenches, prepared and served meals, pumped 
fuel, filled sandbags, swung hammers, swung chains, trained and 
pulled triggers with the soldiers of the 1st Cav. I have come 
to realize that the American soldier, regardless of his or her 
military occupational specialty, will do whatever is necessary 
when properly led, sir. Motivated and cared for in a fashion 
that they do truly deserve.
    Don't mistake my comments. We did not and we do not coddle 
our youth. We set the conditions when deployed and challenge 
our soldiers each and every day. It is harder to be a 
successful soldier today than 29 years ago when I first entered 
the ranks, but we reap the rewards of the same every day.
    During my 15 months in Baghdad, I watched as our officers 
and soldiers, airmen and Marines worked in neighborhood and 
district advisory councils. At the same time, I have got to be 
honest with you, sir, I was schooled in the democratic process 
myself. I watched as soldiers rolled up their sleeves and 
repaired and resupplied schools for the youth of our country.
    Sir, all I have ever wanted to be is an American soldier, 
and I realized that in 1967 when I was in my father's Buick 
LeSabre and we were traveling down the Garden State Parkway. In 
1967, there was a lot of people that were heading off to 
Vietnam, and back in 1967 there wasn't a seatbelt law and we 
youngsters could bounce up and down in the front seat. And, 
sir, I waved to those soldiers that were in front of me. And 
you know what a soldier always does, sir, when a kid waves and 
smiles; they wave back. And I was hooked. They had me hooked 
from go.
    And, sir, that is what compels our soldiers today. They 
live to help the young. They live to help the old. They love to 
build things. It is easy to cut the grass, but they love to 
make the grass grow. They can build anything just as quickly or 
just as well, rather, as they can destroy it.
    I was witness to our soldiers working alongside Iraqi 
national contractors repairing sewage treatment systems or 
establishing them in areas where none previously existed. I 
watched and learned as our guard and reserve soldiers employed 
their civilian skills in training the Iraqi security forces.
    I watched and learned as our engineer officers, non-
commissioned officers, be they civil and combat, active, guard 
and reserve, stood up governance support teams, mentoring 
elected and appointed Iraqi nationals in the ways and means of 
running, staffing and maintaining an urban center. I watched as 
our commanders mentored local leaders and contractors and 
developed the infrastructure necessary to delivery fresh 
potable water to portions of Baghdad that never had it, sir.
    I was witness to agricultural initiatives that repaired and 
revitalized irrigation systems and delivered thousands of tons 
of needed seed and fertilizer.
    Sir, ladies and gentlemen, I have no doubt that Iraq can, 
and one day will, be the agricultural heartland of the Middle 
East.
    Insomuch as our operations in Iraq are concerned, I can 
tell you unequivocally we left Baghdad, and for that matter 
Iraq, in a better posture than when we first arrived. This is 
not meant to imply that those who worked and fought before us 
did not do a superb job. On the contrary, the 3rd Infantry 
Division and 1st Armored Division and 1st Marine Division set 
the conditions that enabled our success.
    Today, while fighting still continues in Iraq, the country 
continues its march toward democracy regardless of what you may 
read in the press, sir. What form of democracy achieved in Iraq 
may vary greatly from what we enjoy here at home, but I have no 
doubt that our continued engagement with the Iraqi people will 
ultimately--or excuse me, through our continued engagement, the 
Iraqi people will ultimately enjoy a far greater degree of 
self-determination than the have ever known in their 3,200 year 
history, sir.
    The Chairman. Command Sergeant Major Citola, thank you for 
a very vigorous statement. Appreciate it.
    And, gentlemen, thanks for telling us a little bit about 
your personal involvement in the initial operations and the 
program to rebuild Iraq.
    Let me, and just go left to right here, ask you about 
something that came up during your testimony.
    You mentioned--I think Colonel Abrams mentioned that the 
units which are fighting that have been involved in some of the 
toughest fighting seem to have among the best re-enlistment 
rates, which would seem to be contrary to the general 
perception that the war is scaring off soldiers and would-be 
soldiers from enlisting and would-be Marines from enlisting in 
the uniformed services.
    Kind of interesting that the people that have been in the 
toughest fighting are interested in re-enlisting, because there 
is a lot of talk today from various pundits who project the 
breaking of our armed forces because of the operating tempo 
(OPTEMPO) and the veracity of some of the operations.
    So, General Kelly, why don't you tell us a little bit about 
the Marine units and if you have got any statistics, any 
figures on re-enlistments? How do re-enlistments go in terms of 
the people that are in country that are carrying the brunt of 
the war?
    General Kelly. Yes, sir. Perhaps if I could start with 
enlistments. It has been very, very difficult this year to 
maintain the numbers that we need to maintain. When I say very 
difficult, we have maintained them, it just takes a lot more 
time.
    Kind of a statistic to throw at you, the average recruiter 
2 or 3 years ago spent about 4 hours per recruit. Usually, most 
of that time spent with the recruit, a little bit of time with 
the family. Generally speaking, today, it is about 15 hours. 
Most of the additional time spent with the family. As I 
mentioned before in my opening, the question always is, ``Will 
he or she have to go to Iraq,'' and, again, the honest answer 
has got to be, ``Absolutely.''
    There are three types of Marines in the world today: Those 
in Iraq, those that just got back and those that are looking 
forward to going.
    But your specific about re-enlistments, like what the 
Sergeant Major said, I mean, we have had the most successful 
year perhaps, in re-enlistments that we have had in a long, 
long time. We try to match up what we need and try to re-enlist 
those with the right MOS and skill level or skill sets. We have 
had nothing but success. It has not in any way, shape or form 
impacted on our re-enlistment rates.
    So as I said, we shipped 104 percent this year into the 
boot camps. It has been a tough year, and we have re-enlisted 
everyone we have wanted to and turned many, many great Marines 
back. So these guys and gals are in it for the fight. That is 
where they want to be, and that is what they want to do.
    And, oh, by the way, the highest re-enlistment rates were 
among married Marines, all of whom know they are going back to 
Iraq.
    The Chairman. Colonel Abrams.
    Colonel Abrams. Sir, I would add to that a standing kind of 
rule in the Army, for us anyway, is for re-enlistment you 
enlist soldiers but you re-enlist families. And I echo what 
General Kelly said: A large portion of our force is married, 
well over 60 percent. That is a record.
    And the reason why they re-enlist, sir, is, one, they know 
that their families are going to be well cared for back at 
home, there is great family readiness groups that support them, 
we support our extended families, those that don't live in the 
area, single soldiers' parents that stretch across the nation. 
We have got some very creative people, we have got strong 
attachments that help take care of our families.
    So our soldiers know that while they are deployed, while 
they are forward they don't have to worry about what is going 
on at home. We have got a chain of command back there and 
plenty of volunteers to help keep everything heading in the 
right direction so soldiers can remain focused.
    Now, soldiers in the heaviest fighting. Why is that? Sir, 
as you know, it is well documented, there is a bond amongst 
warriors who have been through the worst of the worst that 
lasts a lifetime. And our boys saw a lot of tough stuff. That 
is what keeps them together. They want to continue to serve and 
be in that unit. They want to stay in that unit as long as they 
can, and then they want to go off to other units and try to 
spread that same level of confidence, courage, valor, 
togetherness, cohesiveness, combat capability. And that is what 
really drives them.
    Sir, just a couple of statistics. While we were in theater 
for the division, the initial re-enlistment rate for the 
division was 117 percent of our initial termers, 127 percent of 
our mid-termer mission and 167 percent of our careerists. Now, 
keep that in context. While we were in combat, 4,704 soldiers 
total raised their right hand, swore an oath in combat.
    For fiscal year 2005, which is a little more interesting, 
which included 6 months in combat and then 6 months upon our 
return, the division just completed out fiscal year 2005 with 
an overall of 114 percent initial, 128 percent mid-termers and 
190 percent in our careerists, for a total average across the 
force of 130 percent.
    It is significant to me, sir, because there is an 
appropriate financial incentive for soldiers to re-enlist in 
theater; that is not a secret. But we continued to re-enlist 
great soldiers and families even after our return when there 
was no incentive and they know they are going back.
    Thank you, sir.
    The Chairman. That is an extraordinary statistics, the fact 
that the people that are in combat are more likely to re-enlist 
than the others. Quite a commentary on their heart for our 
country.
    Command Sergeant Major.
    Major Citola. Sir, yes, sir, it is. And I think that is 
testimony, sir, to the manner in which we are supported. See, 
we don't want anybody's sympathy. We understand what we got 
ourselves into, especially after we re-enlist one time. All we 
want is support.
    Sir, we know how much support we garner from our elected 
officials as soldiers. That is from a sergeant's perspective. 
We know as soldiers that, by and large, that there is a 
significant portion of the American population overall that 
supports us in our effort or the vast majority of Americans, at 
large, support us and what we stand for.
    But, sir, I have got to tell you, and I will speak of 
retention and ascension, but specifically about recruiting 
young Americans today. Sir, if I watched what was just on TV, 
sir, I don't think I would join the armed forces of the United 
States either. I wouldn't, because, sir, from my perspective, 
in many cases, it looked like everything is going to hell in a 
hand basket over there. And I am not trying to go ahead and 
throw stones at the media.
    And I will give you an example just from my perspective. I 
like putting CNN or Fox News, whatever the case may be, on up 
in my office. If one vehicle barrier (VB) IED, one car bomb 
goes off, sir, well, shoot, by the end of that 24-hour day, 
sir, 48 car bombs have gone off. And, sir, the world is not 
coming to an end, the sky is not falling.
    As the general, the colonel or myself have already 
articulated, there is more good going on over there than you 
can shake a stick at, but the only people who have an 
appreciation for that are, sir, ma'am, ladies and gentlemen, 
those of you who bother to take the time to cover over there 
and walk the same dirt as us, or those that bother to go ahead 
and get an appreciable cross section of we soldiers, 
contractors, and the other government employees that are over 
there engaged in the same fight that we are.
    So why am I not surprised by our retention rates? Because 
the soldiers understand the criticality or the seriousness 
associated with the fight that we are engage in, sir.
    Sir, Martin Luther King said once that injustice anywhere 
is the threat to justice everywhere. Sir, I grew up in this 
great country and I did stuff wrong. And you know what, sir, my 
little boy, he is 17, and I know he is doing it wrong too. But 
he will have to go ahead and account for those things later on, 
whether it is to his family, countrymen, or to his God, but 
there are certain liberties and freedoms, sir, that my son, as 
a birthright of being born in America, that he ought to have. 
And, sir, if it means that I am consumed in my effort to go 
ahead and protect those liberties that this country enjoys, 
then, by golly, I will go ahead and do it.
    But if I have got to go ahead and make a mess somewhere--
and this isn't just me, sir, I speak for a whole lot of 
soldiers--I would rather make a mess in somebody else's 
backyard. But one way or another, sir, there are people out 
there that, shoot, ain't ever going to get along with us, and I 
would rather have to go ahead and contend with them somewhere 
else than do it back home over here.
    And, sir, our soldiers have a sense of that. They know what 
we are attempting to do over there is honorable and it is just. 
They get a true appreciation for the great leadership that they 
are associated with. And, sir, as the colonel and the general 
just mentioned, you become part of a band of brothers that, 
sir, you would be contented to go ahead and go out every living 
day with.
    So our big success that I think we are finally scratching 
the surface of, sir, is recognizing earlier on in our 
preparations as we prepare to redeploy back into the 
continental United States, our great soldiers, male, female, 
whatever the case may be, and those youngsters, ages 19 to 25, 
that are so proud of their service that through the Recruiter 
Assistance Program we need to do a better job of pushing them 
out onto the streets with our seasoned recruiters to truly 
articulate in the minds of America's youth and their mothers 
and fathers what reality is and why what we are engaged in is 
worth the sacrifice. And I think we are on path to do that, 
sir. I know I ramble.
    The Chairman. Command Sergeant Major, thank you very much.
    The gentleman from Missouri.
    Mr. Skelton. Gentlemen, thank you for your excellent 
testimony. I have one question for the general and the colonel 
and one question of the command sergeant major.
    As you know, I have been interested in professional 
military education for quite some time, and I know each of you 
have been to intermediate and senior war colleges. My question 
of each of you is, how has professional military education at 
any and all levels been of help to you in your combat 
experience?
    And, Command Sergeant Major, let me ask you, so you may be 
thinking about it, should there be more professional military 
education along the lines of intermediate and senior level for 
the officers for senior non-commissioned officers?
    General Kelly, I will ask you first on the question, has 
professional military education (PME) helped you.
    General Kelly. Sir, the two aspects of PME that I have been 
involved in was of course the PME, professional military 
education that the services sent me to, the National War 
College, the Infantry School at Fort Benning down here at 
Quantico. Tremendous experiences all. But I have also spent my 
entire life on a personal PME program, if you will, studying 
the art and science.
    And what has that done for me? I was never once surprised--
in my two tours in Iraq, never once surprised ever about 
anything that happened. Unfortunately, I was also--or, 
fortunately, also, I think, well positioned as the war kind of 
got out of the conventional war phase and into the insurgency-
counterinsurgency phase. I was able to pick that up, reorganize 
the forces that I was responsible with, and we started doing 
the so-called phase four.
    But my comment would be, I was never surprised. It was if I 
had seen the movie before. I don't know if that answers your 
question.
    Mr. Skelton. Certainly does.
    Colonel.
    Colonel Abrams. Sir, I echo the general's comments. Our 
Army school system, in fact, I think the joint PME program, but 
in our experiences in units, it is not teaching us what to 
think; it is teaching us how to think. And so while maybe the 
curriculum may not have been exactly tailored for the fight 
that we have going on in Iraq right now, the combination of our 
professional military experience at the Army War College, 
Command and General Staff College, combined with my own 
personal training and my life experience in the Army, taught me 
enough how to think.
    So when faced with ambiguous situations in Iraq, it was not 
a matter that I hadn't had enough training.
    What I would even echo even more, though, sir, is for 
junior leaders, because this is a junior leader fight. This is 
a squad, platoon, section, company at the biggest, except for 
when you have got really bad things going on. But the day to 
day it is a platoon fight. And our young officers and junior 
non-commissioned officers they understand how to think. Our 
training methodology and our school system for our junior ranks 
is teaching them enough how to think, so they are very 
adaptive, incredibly adaptive and agile on their feet to be 
able to fight this fight and they are very good at it.
    So I would say right now it is adequate.
    Mr. Skelton. We are doing it right, is what each of you are 
saying.
    Colonel Abrams. Yes, sir.
    Mr. Skelton. Command Sergeant Major, my question of you.
    Major Citola. You know, sir, I hear, it is interesting, 
there are a number of people within the Army, principally, we 
non-commissioned officer senior types, that are constantly 
taking advanced non-commissioned officers education system 
(ANCOES), breaking it apart, putting it back together and so on 
and so forth.
    We question the validity of the point of instruction (POI), 
programs of instructions, which are being facilitated at both 
the warrior leader course, or what we knew as primary 
leadership development course (PLDC), basic non-commissioned 
officer course (BNCOC), the basic non-commissioned officers 
course, advanced and then the senior level academies.
    I am going to get to your point, sir, but we must never 
forget that it is what we learned in those schools that brought 
us where we are now. So, God bless the officer corps because it 
is commissioned officer corps and it is our elected officials 
that got us the non-commissioned officer educational program.
    Sir, I think we got it about right. That is the short 
answer. I think that there is much that we can do to the 
program of instruction, to go ahead and improve the degree of 
relevancy to the individual soldiers as we prepare them to the 
ascend into the ranks of junior non-commissioned officer, and I 
think there are things that we can do to stimulate, and to 
reinforce what Colonel Abrams just said, how to think, not what 
to think. And we have got to go ahead and base more of the POI, 
what we provide to our soldiers, situations where they are 
forced to go ahead and respond, forced to make decisions and so 
on.
    But the general said this, he said, ``A lot of what I 
encountered it is like I saw it before.'' And sir, at the 
National Training Center, joint readiness training center 
(JRTC), and sir, in the backyards at Fort Hood, Texas, our 
commanders are doing a great job of that.
    Sir, everything I have mentioned here is nothing 
fundamentally new to the Army. Just a few weeks ago, I was 
blessed with the opportunity to sit down with Command Sergeant 
Major Cory McCarty at Fort Leavenworth and the Sergeant Major 
of the Army, and they are on top of this. Command Sergeant 
Major John Sparks at training and doctrine command (TRADOC)--
and plagiarism is a virtue, and I am just to talking head right 
now because all these wheels are in motion right now, sir.
    We need to keep the Non-Commissioned Officer Educational 
System, we need to continue to go ahead and, as I said, improve 
its relevancy. But I will tell you something else, sir, that is 
just knocking down targets and it is just a force multiplier 
for the enlisted ranks: You all let us go to collect for free. 
Sir, we have got smarter soldiers, they are better soldiers, 
they are more knowledgeable soldiers, they are more capable 
soldiers.
    Sir, there was a time a long time ago when I first became a 
command sergeant major that I wouldn't have trusted a sergeant 
or a staff sergeant to take a group of soldiers from one side 
of the National Training Center to the other. Heck, sir, today, 
just to expand on what Colonel Abrams just mentioned, we have 
got young buck sergeants and staff sergeants that will start 
out on a patrol from one side of Baghdad, fight their way to 
the other, just to go ahead and drop off supplies and they 
continue on to the range so they can train and fight their way 
back to the forward operating base. That is testimony to the 
educational system and the depth of our leadership that we have 
in the Army today, sir.
    Mr. Skelton. Thank you.
    The Chairman. I thank the gentleman.
    The gentlelady from Virginia, Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    First of all, I would like to thank you for your service 
and thank you for being here with us today to share your 
stories.
    Sergeant Major, that was very, very uplifting to hear what 
you said and waving and they waved back to you. I think that is 
very important.
    I recently came back from Iraq with men and women that I 
met with at much lower ranks than you are all in, but it seemed 
to me it is exactly what you said, that they know exactly what 
they are doing, they are committed that we will not have 
another attack on our soil. They know why they are there. Their 
question was, why don't the American people know why they are 
there, and they really wanted to know what are people saying at 
home, what are people thinking at home.
    And just this morning on the news, I heard a story about 
The New York Times taking an excerpt from a letter from a man 
who was killed who his family claimed he was very grateful for 
what our forefathers have done so that we would be a free 
people and felt he had an obligation to go and do the same 
thing. Fortunately, that letter is coming out now and that that 
was not his letter and I just thought I would ask you about 
that and what your perception is.
    You have mentioned the media. I don't know how we fix that, 
other than we have made a commitment here in Congress to take 
the floor of the House and to talk about what you are doing and 
why you are doing it. But, to me, that is the thing that is 
hard is to see in their eyes that they really want to know what 
are people at home saying. So I didn't know if you would like 
to comment on that.
    And to also say what Mr. Skelton has said is, we want to 
help you if we can, and the only real discussion I had in Iraq 
was, should members of the Army go for a full year, so you 
might even address that, where our airmen go for four months or 
six months and Navy goes for six.
    General, I didn't meet any Marines on my trip, so I don't 
know how long they go to Iraq for, whether they go for a full 
year or somewhat less than that.
    So those are the two things; if you could comment on the 
media and the impact it has on our men and women over there, as 
well as how long should people be there?
    The other side of that is, they do all seem to offer to go 
back and they talked about that, that they knew that they would 
be coming back, and they want to come back. So I am very 
grateful.
    And the only other thing I would say, General, is they may 
be regular people but they are truly extraordinary people, and 
I believe history will name them just like they named the men 
of World War II.
    Colonel Abrams. Ma'am, I would first like to say I 
appreciate you going over there to visit. I think that is 
great. Unfortunately, I was on a part of the side of Baghdad 
that didn't get to see many congressional delegations. They 
seemed to come when things were fairly bad and not very safe, 
but I appreciate you doing that.
    Ma'am, first about the media, your question about the 
media. We dealt with the media extensively in country, and when 
we could get them to come and cover good news story and 
positive things that were going on, it was always, I can say, 
except in one circumstance in a year, every story that was done 
on our unit was fair and balanced.
    But here is the challenge: When we were conducting those 
two periods of full-scale combat operations, I had requests for 
in-beds more than I could handle. Everyone wanted to come watch 
the fighting--everyone. And I didn't have the capacity to 
handle them all. I had to cycle them through so that everybody 
would get a chance to be with our soldiers in the middle of the 
fight.
    When the fighting was stopped, militia were done, they were 
turning in their weapons and declared that they were no longer 
hostile, suddenly no one wanted to embed with us. And we had a 
lot of good things. We made an immediate transition. As soon as 
fighting was done, we set the conditions with projects in the 
queue, contracts were ready to go, and we immediately started 
reconstruction where a week prior we had been fighting for our 
lives. And that is where it became difficult.
    But I do want to highlight to you that we never had a 
problem getting Iraqi media. The Iraqi media was very 
forthcoming. We found them to be very, very professional. They 
were always fair and balanced. They may not have submitted 
their stories exactly in a timely manner, it may have been a 
week or so before we saw them in the Iraqi newspapers, but 
without exception, their reporting was completely accurate.
    They enjoyed the opportunity to exercise their freedom of 
speech; in fact, they reveled in it. And so it was very easy 
for us to get Iraqi media to come and cover openings of 
schools, delivery of backpacks, humanitarian aid distribution, 
opening of sewage lift stations, so forth and so forth. Those 
were covered constantly by the Iraqi media and always very well 
done.
    Ma'am, to your second question on full-year tours, that is 
really a question that is best left for the commander of Multi-
National Forces Iraq and the senior leaders of our armed forces 
in terms of our rotational strategy. But there is a requirement 
for manpower in country, and to maintain the tempo that we 
need, a year is about right. But there is a lot more to that 
that really needs to be answered by much senior leaders in the 
Army than me.
    Thank you, ma'am.
    General Kelly. Ma'am, if I could just add, the Marine Corps 
deployments and the Navy deployments overseas are seven months. 
We have been doing deployments away from home, aboard ship and 
places like that since about 1945, and we have kind of figured 
out that is good for us.
    Now, that also means they come back for seven months, then 
go back over for seven months. But the families prefer it that 
way, and, certainly, the Marines seem to prefer it. And, again, 
we could go in another forum and talk about what advantages for 
the Marine Corps. It is harder to manage that for the 
institution, but it keeps their heads in the game, and as they 
start to tire, they come out, get a break back at Camp 
Pendleton, Camp Lejeune, North Carolina, places like that and 
then roll right on back in.
    Your comments about the media, a couple of personal 
observations. When I came back in August of last year, I didn't 
realize how bad the war was going until I got back to the 
United States and read it in the media.
    What was disappointing to me was is, clearly, we were not, 
in my estimation, a nation at war, and when I came back here to 
Washington, it didn't seem to me that we were a capital at war.
    I have two sons in the Marine Corps, both of them served in 
Iraq. Both of them are home but about to go back over. And what 
I just said about not realizing how bad it was going, they 
essentially said the same thing when they came back. One is an 
infantryman lance corporal, enlisted man, the other one is an 
officer who is serving with force reconnaissance.
    And the constant pounding of negative and, in their 
opinion, unrepresentative or not a complete representation of 
the facts, the constant pounding about casualties and things 
like that, as opposed to the cooperation with the rebuilding of 
the country, cooperation with the Iraqi people, et cetera, et 
cetera, et cetera, it was demoralizing to them. I mean, I am an 
old guy, I kind of understand it. They are not old guys, and 
they didn't understand it.
    Major Citola. I think a year deployment is about right. 
That is my personal opinion. Professionally, I understand why 
we as an Army are forced to do that, in some respects, and when 
you look at the natural cycle and maturation process you go 
through in the combat theater of operations, again, I think it 
is about right.
    If I was going to recommend anything else, I would do it in 
a closed forum, but until the Army can go ahead and flesh out 
the additional brigade teams they are working on right now, it 
is going to be tough, but a year committed allows us about a 
year back home, ma'am.
    You know, ma'am, it is interesting, you talk about the 
media, and, yes, ma'am, as the colonel and the general 
mentioned, when the bullets start to fly, ma'am, people always 
start to break out cameras. When one of the early successes 
that the 2nd Brigade Combat Team realized early on outside of 
Camp Victory, just east of the Baghdad International Airport 
was the Baghdad Agricultural College and the Baghdad Veterinary 
University that had been shut down a couple years before the 
American invasion and had been grossly underfunded during 
Saddam's regime, or at least the last 10 to 11 years.
    Number one, both those institutions were reopened. They 
were repaired, they were reopened, they were restaffed, they 
were reequipped with monies that were approved both in Iraq and 
from institutions, be they public and private back in the 
United States. As a matter of fact, exchange programs were 
established through the Army by which professors of education 
were flown back to the United States, and they established 
partnership institutions here in the continental United States, 
and some other instructors went back to those institutions in 
Baghdad. And, today, those arrangements continue to flourish. 
None of that was covered in the media, ma'am--none of it.
    Ma'am, ladies and gentlemen, I don't know if you had an 
opportunity to read it but there is a book out called, 
``1776.'' I just finished that thing. I continue to go ahead 
and learn more and more about George Washington and realize 
that he is a whole lot more than a face on the dollar bill--a 
man of tremendous substance and self-discipline and will power.
    You know, it is amazing, I look at the 20,000 to 30,000 
young American continentals that committed themselves to 
something when fully 60 to 70 percent in some cases of those 
who occupied this country at the time in its infancy were 
opposed to separating from Great Britain. And these young 
Americans stood the course. And it wasn't a short affair. All 
of us in here that have a decent education realize that it took 
about eight years to go ahead and win our independence.
    You know, I wonder what would have happened if the American 
media that we have today would have been back there then. But 
that is okay. I believe that as long as you have sufficient 
depth of character and will to go ahead and support us in our 
effort and to help us finish something that we started, it will 
all be okay, ma'am.
    Mrs. Drake. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    I am going to ask the gentleman from Texas, Mr. Reyes. He 
has got a few comments and questions. And then I want to ask--I 
know, General Kelly, you had some individual descriptions of 
some of what our individual Marines had done, and I would like 
you to tell us about that a little bit, but we will go with Mr. 
Reyes first, and then we will let you do that. I should have 
invited you to do that when you made your opening statement.
    The gentleman from Texas, who has been to theater about 10 
times and who has really put a lot of time in with our folks in 
uniform.
    Mr. Reyes. Well, Mr. Chairman, I would be glad to wait to 
have him tell his story. That is fine.
    The Chairman. Okay. I thank the gentleman.
    General Kelly, are there any particular citations that come 
to mind?
    General Kelly. Well, it just so happens, Mr. Chairman.
    The Chairman. Good.
    General Kelly. And, in fact, I thought--my apologies to my 
two colleagues--I thought that all of us were going to have the 
opportunity to do this. And I have got a coupe here, Marines 
and sailors, but you can put soldier, sailor, airman, Marine in 
here. It is all truly the same.
    The first one that I have, and I will maybe just read all 
of the citation, but before I do I just want to ask everyone in 
the room to think about something that happened in their lives 
that absolutely scared them to death and how terrifying that 
event may have been. And then think of maybe the most danger 
you have ever been in in your life, not danger that happened 
that may have happened to you where someone ran a red light and 
hit you, but I mean that you personally knew as incredibly 
dangerous and you went ahead and did that.
    The first one is not a Marine, it is a Navy doctor, one of 
our corpsman. There is no more beloved individual in any Marine 
unit than our Navy medical people, both our enlisted corpsmen 
and our doctors. And they save our lives.
    And I would also offer before I read this that in 
responding to an awful lot of congressional inquiries on 
wounded Marines, terribly wounded Marines and sailors, I have 
had occasion to talk to some of the great surgeons at places 
like Brooke Army Hospital and Lackland, the Air Force hospitals 
and all, reconstructive surgeons. They all say essentially the 
same thing, but one of them said it best.
    He said, ``You know, sir, on these reconstructions where 
someone has come up here and lost a face or lost most of their 
body, three years ago the only place we could have seen these 
types of injuries, and this is a challenge, frankly, to the 
nation, to the Veterans Affairs (VA), the only time we have 
ever seen these kind of injuries before three years ago was in 
a morgue. Now, these people like this young man are saving them 
on the battlefield and shipping them home. And a whole new kind 
of branch of medicine, and that is how do you take care of 
these terribly wounded individuals, particularly the facial 
injuries?''
    This particular young man at the time this happened was 20 
years old. He is actually from Mr. Robin Hayes' district and 
also from Mr. Mike McIntyre's district. He has got a foot in 
each one. His name is Luis Fonseca, and almost three years ago 
these actions took place and the president of the United States 
thought so much of these actions he got a Navy cross for it.
    For services set forth in the following citation: 
``Extraordinary heroism, as corpsmen Amphibious Assault Vehicle 
Platoon Company C, 1st battalion, 2nd Marines, Task Force 
Tarawa, 1st Marine Expeditionary Force in support of Operation 
Iraqi Freedom, 23 March 2003.
    During Company C's assault and seizure of the Saddam Canal 
across the Euphrates River, five casualties resulted when an 
amphibious vehicle was struck by a rocket-propelled grenade. 
Without concern for his own safety, Hospitalman Apprentice 
Fonseca braved small arms fire, machine gun and intense rocket-
propelled grenade fire to evacuate wounded Marines from the 
burning amphibious assault vehicle.
    He established a casualty collection point inside the unit 
area and methodically stabilized two casualties that had both 
suffered traumatic leg amputations by applying tunicates and 
administering morphine. Hospitalman Apprentice Fonseca then 
continued to treat and care for the wounded until his vehicle 
was rendered immobile by enemy fire.
    Under a wall of enemy machine gun fire, he directed the 
movement of four casualties from the damaged vehicle, his own, 
by organizing litter teams from available Marines. He 
personally carried one critically wounded Marine over open 
ground to another vehicle. Following a deadly artillery 
barrage, he again exposed himself to enemy fire to treat 
wounded Marines along the perimeter. His timely and effective 
care had undoubtedly saved the lives of numerous casualties by 
his outstanding display of decisive leadership, unlimited 
courage in the face of heavy enemy fire.
    In utmost devotion to duty, Hospitalman Apprentice Fonseca 
reflected the great credit upon himself and upheld the highest 
traditions of the naval service. For the President, Gordon 
England, Secretary of the Navy.''
    I think the theme here is, our medics, corpsmen and Army, 
they make house calls and they wear Navy crosses doing it.
    The Chairman. Thank you very much, General.
    I might ask the colonel and command sergeant major if you 
folks had any particular individuals that come to mind that you 
thought would be good to talk to us about.
    Colonel Abrams. Sir, if it is acceptable to you, I do not 
have a citation but I have personal knowledge of several heroes 
from my formation, and I can recount their stories pretty 
accurately without having the citation in front of me.
    The Chairman. Please.
    Colonel Abrams. Sir, at 1745 on the 4th of April, 2004, 1st 
Platoon Charlie Company 25 Cavalry was conducting a 
reconnaissance on Route Delta in Sadr City. There had been no 
contact in that city since the 9th of October. We were in the 
middle of transition with the 2nd Army Cavalry Regiment. 
Unbeknownst to us, earlier that day, Muqtada al-Sadr issued a 
directive to his subordinates to attack all coalition forces.
    This infantry platoon, led by Lieutenant Shane Aguero, was 
told to conduct reconnaissance and head back to the camp. They 
encountered a group of about 200 men, armed, discussed with 
them, realized that they were outgunned, they were manned in 
M1114s, these 20 soldiers, this infantry platoon.
    Sir, they moved about 150 meters north on Route Delta where 
they started sustaining heavy machine gun rifle fire, rocket 
propelled grenade (RPG) fire, and in about 15 minutes they were 
under attack by what we estimate to be about 1,000 militia 
fighting along Route Delta on a 2-block period. Two vehicles 
were immediately immobilized. The gunner on the platoon 
leader's vehicle was killed in action immediately. There were 
two others seriously wounded. Platoon leader and platoon 
sergeant made a decision to go to ground and go inside to an 
alleyway.
    In the course of that, the two vehicles were abandoned. The 
remaining surviving members of that platoon moved into an 
alleyway, took control of a residence, secured the family. 
There was a mother with three young children, properly secured 
them out of harm's way. Staff Sergeant Eric Bourquin moved to 
the roof of that building with one other soldier and set up a 
machine gun position, an automatic weapons position to provide 
cover for the platoon.
    And now we are up to seven wounded with one killed in 
action.
    Sergeant First Class Jerry Swope stayed in his vehicle in 
the alleyway under constant fire, because he was the only radio 
that was left surviving, and he was the only guy who could 
communicate with his higher headquarters to call for relief, be 
a quick reaction, force the rest of the battalion to coordinate 
with aviation and so forth.
    So over the span of that next four hours of sustained 
combat where we tried, initially unsuccessfully and then 
successfully, to recover that platoon, Sergeant First Class 
Swope stayed in that vehicle by himself in the alleyway. The 
vehicle, the M1114 up-armored Humvee, sustained over 15 RPG 
direct hits. He was wounded himself. He was personally 
responsible for the direction of close air support, rotary 
wing, aviation that was called in for close air support to 
protect the platoon.
    Up on the roof, Staff Sergeant Bourquin was busy attending 
to trading places between downstairs attending to wounded with 
the platoon medic and leading the machine gun squad that was up 
top.
    Sir, it is now dark, the city was completely covered in 
smoke. We could not find the platoon. Sergeant Bourquin had the 
presence of mind to pull up his shirt under fire, set it on 
fire as a signaling device to the rotary wing aviation and was 
able to bring them in close proximity to the platoon's 
position, provide final protective fires until the tank platoon 
was able to reach the platoon and extract them.
    Sir, for their actions that day, Sergeant First Class Swope 
was awarded the Silver Star, and Staff Sergeant Bourquin, who 
was also wounded in action in the same action, was awarded the 
Bronze Star Medal with Valor.
    Sir, I have got about 500 more of those kinds of stories, 
and I know we don't have time for that today, but my point to 
you is that that is going on, those types of actions of 
individual courage and bravery are going on every day, and I 
echo the general's comments. We have got some tremendous heroes 
in our formations, and they are incredible.
    The Chairman. Well, thank you very much. Great testimony.
    You know, one thing that you would mentioned before, 
General Kelly, was the fact that you train all your Marines to 
be riflemen, and this last weekend I had the privilege of 
taking a couple of guys from 2-4, elk hunting in Colorado, a 
couple of Marines that had been wounded in the Ramadi area, and 
the guy that we were with was a legendary Marine named Vic 
Taylor who was with 2-4 in Vietnam, in the Battle of Dai Do. 
And I thought it was interesting that he took these two young 
Marines from this war and kind of took them under his wing and 
had a great time with them.
    One thing that they mentioned that came to me was that you 
had in Ramadi, you had some real intense fighting with a couple 
of the units with 2-4 where literally everybody, including the 
cooks, became riflemen.
    So could you expound on that a little bit, because I know 
that has been a tradition that everybody could use those 
weapons at the right time, and I think you had to do that in 
that AOR.
    General Kelly. Yes, sir. It wasn't so many years ago, 
frankly, that we were criticized on Capitol Hill, not 
necessarily by very many remaining members of this committee, 
but we were criticized for the length of our boot camp, which 
is long but not long enough, in our opinion, and the fact that 
we run every Marine through infantry training regardless of 
what his MOS is. And, of course, then if he is an infantryman, 
he continues on for additional training.
    Same thing with our officers. Every officer in the Marine 
Corps, regardless of what they will ultimately do, goes to 
Quantico to a six-month course down there, much of which is 
infantry training, and they come out of there not a qualified 
infantry platoon commander but a qualified, kind of, rifleman 
platoon commander, if you will.
    And as I say, it wasn't so many years ago we were 
criticized to eliminate much of that training, but, I will tell 
you, when it hits the fan and when everyone is a shooter, 
regardless of whether he is a truck driver or a mechanic or a 
cook, when everyone is a shooter and doesn't hesitate to grab a 
rifle and go do his business, you mentioned Ramadi 2nd 
Battalion, 4th Marines, ``The Magnificent Bastards,'' their 
call sign.
    Paul Kennedy, the battalion commander called me just into 
April. We took over on the 26th. And he was working, by the 
way, for a great outfit commanded at the time by Colonel Buck 
Connor, United States Army, 1st PCT of the 1st Infantry 
Division.
    And they were in the city, in any event, and it was just 
after we took the AOR. He called me because all of a sudden, 
and it happened all over the country, I mean, Fallujah, Al 
Qaim, the northern Babil, it all just kind of erupted, and we 
were in Fallujah, fighting Fallujah. I didn't want to go in the 
way we did, but we were ordered in and then of course just 
about 85 percent of the city was in our hands when we were told 
to stop and withdraw. And I know you have got some personal 
experience of that.
    But in any event, Paul Kennedy called me and said, ``Look, 
I need help. I am in Ramadi. I have got every single Marine I 
own fighting. And my sergeant major, Sergeant Major Booker, has 
been doing this, that and the other thing,'' as he described it 
to me. And sergeants major are not supposed to necessarily do 
these things, but, in any event, he won the Silver Star doing 
them.
    He said, ``Every one of my Marines, and my back is against 
the wall. Reserve committed. I need help.'' And I said, ``Every 
battalion we own is in the same situation. Can't help you.'' He 
said, ``Thanks, got it.'' At the end of the day, 2nd Battalion, 
4th Marines was the only unit standing in the city, but that is 
kind of the leadership, that is kind of the sergeants major, 
whether they are Marines or Army. That is the kind of 
dedication, that is kind of what they do.
    I don't know if that answers it, sir.
    The Chairman. I think that describes it well.
    Command Sergeant Major Citola, you have any particular 
soldiers that come to mind that you would like to talk about?
    Major Citola. Sir, I went on countless patrols with 
soldiers across the depth and breadth of brigade in the 1st 
Cavalry Division. I could speak of them, but I think it is 
probably more fitting, given what the general and the colonel 
have brought with them and the firsthand accounts, sir.
    People always try to protect me from myself when I get over 
there, in many instances. I see you nodding, sir. But, sir, I 
will tell you the stories that I want to pass on too, and this 
goes back to I have been a combat soldier for 29 years, sir, 
and if I had to do it all over again, I would do it exactly the 
same way.
    But I have a penance that I pay every day to specifically 
the combat service support soldiers of the American Army, the 
youngsters that fuel it, feed it, fix it, bandage it up, 
sustain it, repair it, and so on. We all have a tendency to go 
ahead and rush to the sound of the guns. Our elected officials 
when they come to see us they want to get to the tip of the 
spear and find out what is going on.
    But another group of heroes which are present is the 
youngsters that have to go ahead and travel those roads every 
day and bring forward the supplies that are critical to 
sustaining our operation, but also the youngsters that take 
those Humvees, those light medium tactical vehicle (LMTV), 
family of medium tacticle vehicles (FMTVs) and those Hemets, 
the tanks, the Bradleys, and they rebuild them, literally, 
while we are forward deployed.
    And I have spent countless hours with those young men and 
women, and it is a point of honor for them to go ahead and take 
a piece of equipment that many other people would probably have 
a tendency to go ahead and attempt to code out and resurrect 
that thing that put it back in the hands of their soldiers.
    I can't tell you, sir, and ladies and gentlemen, the number 
of times I have gone to every one of the forward operating 
bases associated with the 1st Cavalry Division and the 
maintenance or motor sergeants that walk their forward 
operating bases on a recurring basis and they see something 
wrong with a vehicle and they say, ``You are not leaving till 
that is fixed.'' They pull it in there, whether it is a blown 
out windshield from an IED or whether your wearing harness has 
been destroyed.
    And I will tell you in all honesty one of the best 
maintenance operations I saw as part of the 1st Cavalry 
Division while we were over there came out of my 15th Personnel 
Services Battalion at Camp Liberty, and they helped soldiers 
out of 2-5 Cavalry, 2-8 Cavalry, Marines, Air Force and on and 
on and on.
    But there are tremendous stories in and of themselves, sir, 
occurring every day with our logistical supporters and our 
ordnance type, sir, and I ask that we not forget them.
    The Chairman. Thank you very much, Command Sergeant Major.
    The gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here this morning and 
hearing your testimony and your support for the troops, and 
knowing that we have that kind of leadership gives me a great 
sense of comfort.
    At the same time, my greatest frustration as a Member of 
Congress and as a veteran who knows and understands exactly 
what you meant, General Kelly, when you are so scared that you 
lose control of your body functions and don't realize it at the 
time until you have realized that you have made it through that 
episode that was so horrifying, it frustrates me, and I am 
haunted by what General Shinseki said when we were on our way 
to El Paso to a memorial service for the 507, the first 
casualties in An Nasiriyah, and that was that we have such 
great soldiers.
    And it mirrors just exactly what the command sergeant major 
said. They are extremely professional, they are smarter, they 
are better, they are educated, more capable, they are 
courageous. And when he said that, he also said, ``You know, 
our men and women in uniform are so good, they are good enough 
not to have to fight. We ought to be able to understand that 
war should be a last option, and we ought to say if it is going 
to take a company, we go in with a brigade. If it is going to 
take a brigade, we go in with a division, whatever.''
    I am paraphrasing what he said, but what he meant was that 
we have invested so much in you and we have such pride in the 
stories that you tell and the stories that we know, because I 
have visited Brooks and I have visited Bethesda and Reed and 
Beaumont in my own district, and so I know exactly how proud 
you are, because I have shared that pride to the point of 
having tears come out of my eyes to see such courageous, 
professional, dedicated, great Americans in situations that 
under normal circumstances somebody else might, a lesser person 
might say, ``You know what? Why me? What am I going to do?'' 
And they don't. They just want to tell you how proud they are 
to have worn that uniform.
    So my frustration is compounded when I feel that we have 
failed you. We fail you because we are not doing everything 
that we can to support you and maybe politically should have 
more courage to stand up and say, ``They need more of this, 
they need more support here or there.'' I can give you one 
example.
    When you mention, General, the budget challenge to the VA 
because they have to reconstruct and have to take care of 
families and all of that, and every time that we have voted for 
a supplemental here, one of the things that I have felt has 
been important to do is take a part of that supplemental and 
put, the last time was $1.3 billion, into the VA because they 
had that kind of a shortfall. Yet we failed to get it passed. 
The whole supplemental went through without not one penny going 
to the VA, to the very soldiers that we are so proud of, the 
very soldiers that have given their all for this country, and 
we all ought to be standing up for them.
    When we talk about the conflict and the war and sacrifices 
that they are making, I am haunted by the fact that the 
soldiers that are coming out of or coming back from Afghanistan 
have told me, ``Don't forget about us,'' because we are so 
focused on Iraq. And that hurts me. That hurts me that there 
are men and women in uniform in places around the world that 
think we have forgotten about them and we don't know they are 
there and we don't know that they too are making that 
commitment.
    My pride is such that a few months back I went back and I 
read the ``Charge of the Light Brigade,'' by Lord Tennyson, 
because you can be so proud of the work and what you gentlemen 
represent, but I don't want to see you or our men and women in 
uniform charge just for the sake of somebody's pride or 
arrogance. If you need a company, I want you to come in with a 
division and just wipe people off.
    As the chairman notes, we are still fighting the challenges 
of, it used to be the grenades and the mortar, then it became 
the IEDs, now it is the shaped charges that are taking down, 
Colonel, the tanks that are named after your dad. That 
frustrates me, and we ought to be able to do better for you.
    Yesterday, and I mentioned this to the general before we 
started, yesterday, in the headlines of The Washington Post, it 
talked about the secret prisons and the techniques that are 
being used against our enemies to get information from them.
    And, Command Sergeant Major, last night, I was struck by 
your reference to your son because last night I had about a 45-
minute conversation with my daughter who was asking me about 
that, who had read that article and was asking, ``Dad, you have 
always told us that we are the good guys. People want to come 
to this country because of who we are and what we represent.''
    And what really kicked me in the gut was when she asked me, 
she said, ``Dad, have we stopped being the good guys? Are we 
now in a situation where we are doing the kinds of things that 
we have always stood up to and stood against?''
    And then the real clincher was, ``Dad, did you know about 
this?'' And I said, ``No, I didn't know about it.'' I should 
have known, and I am frustrated and I am embarrassed that we 
are seeing those kinds of headlines and we are raising those 
kinds of issues with our children.
    So my question, gentlemen, if you will--and, Chairman, 
thank you so much for giving me some extra time, but this 
important.
    My question to you is, knowing that our men and women in 
uniform are the best we have ever had, the most educated, the 
most professional, the most courageous, the most capable, that 
we are so proud of their work, of their professionalism, of 
their efforts and everything that they stand for and accomplish 
for us, do you find that it is going to be a challenge to keep 
them motivated that we are the good guys when all of this is 
swirling around?
    How do we keep them focused that we are still a nation that 
people want to come to, a nation that we respect our enemy, a 
nation that we don't gain anything by adapting tactics that we 
abhor and we have criticized dictators and others in the past?
    These are smart, bright young men and women that read the 
same thing, are concerned about that same thing. And I am 
assuming because my daughter has a doctorate in education and 
follows current events and follows what we are doing. So do you 
envision that to be a challenge? And if it is, how do we get by 
it and how can we, as a Congress, help you to bridge that issue 
if it is an issue?
    Major Citola. Sir, what I don't want to do is sometimes 
speak out of turn and incite issues within the armed forces or 
my Army, but I will tell you what, sir, in answer to your 
question, what do you need to do, sir? Sir, I don't know, 
because at my level, as a sergeant, I know that I am obligated 
to go ahead and provide my country and my Army honorable 
service.
    I know in conversations, and General Chiarelli is probably 
one of the finest men I have ever known, he reminded me of 
something. On a couple of occasions in Iraq, sir, when you just 
want to lash out sometimes when you lose soldiers, we are a 
nation of laws, and we are obligated as its military to hold 
ourselves accountable to those laws.
    And, sir, I can only tell you that I saw the article, I did 
not see the verbiage in it, I saw some of the pictures in it in 
passing that when we experienced the issues as they existed at 
Abu Ghraib and things of that nature, I attribute that to 
failures of leadership, we sergeants. You cannot think that you 
can go ahead and exercise warfare in its present state with any 
less a modicum of discipline, be it individual, collective, 
unit, whatever, than we have in years past.
    You cannot do those things, from my perspective, our 
perspective as leaders, without understanding and realizing 
that you will always be held accountable. You cannot do that 
and again be a student of history and realize that we will reap 
in the end more from being the righteous ones than we will if 
we decide to go ahead and employ the same techniques that those 
who would like to do us harm do.
    The Chairman. Would the gentleman yield? Would the 
gentleman yield?
    Mr. Reyes. I will yield.
    The Chairman. Thank the gentleman for yielding.
    I think my friend from Texas has illustrated one of the 
reasons why I held this hearing. I asked our staff to count the 
number of articles that The Washington Post did on Abu Ghraib, 
that a handful of people did at 2 o'clock in the morning, 
without authorization, with themselves and with prisoners at 
Abu Ghraib prison.
    As I recalled at the time, they had done 56 articles about 
what a handful of people did on the midnight shift at Abu 
Ghraib. They would only done 40 articles on the invasion of 
Normandy from the date of the invasion until the present time.
    So the gentleman talks about facts that are swirling around 
and how something has happened where we detained the people who 
blow up women and children, detain them, and with the 
implication that somehow we have been a bad nation. And The 
Washington Post article proves it.
    Now, we have a law, I will tell the gentleman, against 
torture. We are signatories to the Torture Convention, the 
United States codes have implemented that Torture Convention 
law as a prohibition. If a U.S. officer or enlisted man or a 
member of any Federal agency violates that, he is criminally 
punished.
    So if the gentleman will bring to me any people who have 
violated that law to which we are signatories and which we do 
not violate, because our officers are informed of their 
obligations under the United States codes, we will be happy to 
forward that for criminal prosecution. But as I saw, and I 
didn't read that entire article, I don't think The Washington 
Post had any allegations that anybody had been tortured at 
those places but simply that there were places where al Qaeda 
operatives are kept and are interrogated other than the ones 
that the gentlemen make the front pages every day, like 
Guantanamo and other places that are in country.
    That is not too profound. We realize that you haven't had 
new people coming into Guantanamo for along time. So, 
obviously, they are going to other places. But anybody who 
violates the United States codes that implement our signature 
on international agreements with respect to treatment of 
prisoners is criminally prosecuted.
    So if The Washington Post wants to try to out somebody that 
they allege has violated any of those, we would be happy to 
entertain those and act on them.
    But I think the gentleman has made a great point. The 
gentlemen in front of us have talked about the heroism and the 
dedication of 148,000 people, and the gentleman from Texas has 
talked for about 10 minutes about an article which vaguely 
asserts that somehow America has been bad because we keep 
people in remote locations.
    You have to keep people in remote locations, and you have 
to keep them segregated and you have to get information from 
them, because the information that you get from them may save 
the American lives of some of those great people who are 
stationed at Fort Bliss, Texas and places like Pendleton, 
California.
    So I thank the gentleman for bringing that up, but I think 
that shows, in my estimation, the great imbalance of The 
Washington Post, as an example of the American media. Perhaps 
the most important day in the history with respect to the 
survival of our nation in the greatest war of this century, the 
invasion of Normandy, got less press from The Washington Post 
than what 15 people did at midnight in Abu Ghraib.
    Mr. Skelton. Would the gentleman yield?
    Mr. Reyes. Yes, I will.
    Mr. Skelton. What troubles me is that the handful of those 
who did despicable acts taints the heroism of which these 
gentlemen speak. That is why it is important that we be 
transparent, we find out, we publicize and we prosecute and let 
the justice system work, so that the taint does not touch those 
upon whom we are hearing today. It is important to do that. 
Otherwise, the stain could well spread. We don't want that.
    Mr. Reyes. Mr. Chairman, can I respond, because I don't 
want you to misunderstand what I said?
    The Chairman. Certainly.
    Mr. Reyes. I mentioned the article in The Washington Post 
because of the fact that it prompted my daughter to call me and 
ask me if we are still the good guys. These guys represent the 
good guys. These guys here are what makes you and I so proud of 
our military and our military leadership.
    To somehow turn away from issues or problems that are our 
responsibility--and I would remind you, Mr. Chairman, with all 
due respect, that when we heard the facts in Abu Ghraib, there 
were people there that were naked in jail cells for days at a 
time, for a week at a time. So it wasn't 2 a.m. in the morning, 
and it wasn't just one rogue group.
    We never had, in my opinion, Mr. Chairman, and I know you 
and I have had a number of discussions, but we haven't done the 
oversight, in my opinion, that needs to be done to hold people 
accountable, whoever is accountable.
    We have had information, documented information, that 
decisions were made by people to suspend the Geneva 
Conventions. The article yesterday made mention of several 
other concerns in terms of our being signatory to treaties.
    But what I am concerned here, and all of that aside, is not 
to add to the burden of our great military leadership, and that 
is why I said, how can we help, because questions are going to 
be asked by bright, articulated, educated men and women in 
uniform that aren't turning away from all this. I mean, they 
read the same newspapers we do, they look at the same news. The 
government issue (GI) grapevine is one of the most amazing 
things, for those of us that are veterans, of anywhere. That is 
the original Internet, as far as I am concerned.
    The Chairman. Well, here is what I would just respond to my 
friend, because I know--and he has got one of the finest, most 
wonderful families of any Member of Congress. And we are going 
to both stipulate, your daughter is probably brighter than most 
members of the House of Representatives.
    What you can tell her is that the young people--and they 
are mainly young folks who operate with our other agencies, 
including the Central Intelligence Agency (CIA), in remote, 
dangerous, difficult parts of the world--aren't mercenaries, 
they aren't some dark side villains who somehow are separated 
from the rest of America, generally speaking, they are really 
good people, like the young former Marine who was killed in the 
prisoner camp by Taliban members who was well publicized early 
in the war. A lot of them are former service members.
    They are very professional people, and they are, in most 
cases, every bit the same people as General Kelly and Colonel 
Abrams and Command Sergeant Major Citola we are talking about. 
They do a good job, they are professionally schooled, and they 
don't torture people.
    So the idea that somehow the fact that you have places 
where we take the al Qaeda when we capture them, that our 
intelligence agencies take them and they interrogate them, that 
is their job.
    And I would just say to the gentleman that the fact that 
you have locations where people are interrogated isn't too 
profound, but the Americans who operate for our intelligence 
agencies--you know, one time I heard one of our now 
distinguished members of the Senate, as a representative, speak 
on the floor as if the personnel in our intelligence agencies 
were somehow mercenaries, that we have gone through this era of 
movies in which every time a CIA person is depicted they are 
depicted as some kind of a drug lord or they have done 
something nefarious or wrong or bad.
    These people, in many ways, are very ordinary people. In 
other ways, they are very extraordinary people. They did in 
small remote, very inconvenient places around this world, 
fighting for our country.
    So the first thing I would say to all young people who read 
The Washington Post article is that we have great people 
operating these agencies, they observe the rules, and they 
observe all the rules with respect to--and if they don't 
observe the rules, there is U.S. code, U.S. law under which 
anybody, whether you are in the CIA or you are under the 
Department of Defense, if you break that law, you are 
criminally prosecuted.
    So you can tell all young folks that we have laws that 
protect even people who blow up buses full of children.
    The other thing that I think is interesting is that when we 
went to Guantanamo--and the gentlelady from San Diego was with 
us on that trip, and most of us have been to Guantanamo--is 
that the terrorists today who are held, including Mr. Osama bin 
Laden's bodyguards and the 20th hijacker, have a right to 
counsel.
    And so I would just tell the gentleman, they have a right 
at Guantanamo. We all appreciate our soldiers. Our soldiers, if 
they are captured, don't have a right to a lawyer. The 
terrorists who are kept at Guantanamo have a right to a lawyer. 
They have more rights under the American system than our 
soldiers have if they are captured on the battlefield.
    So my presentation to young people in this country is that 
we are a good and great nation, and the people that operate in 
our intelligence agencies are very, very fine people. And I 
didn't see anything in the article that states that they are 
not, other than the fact that we interrogate people and when we 
capture al Qaeda members we keep them in undisclosed locations. 
And I think there a lot of very, very good reasons for doing 
that.
    I appreciate the back and forth with my good friend from El 
Paso.
    Mr. Reyes. I am being pressured by my colleagues here, can 
we let them go now?
    The Chairman. Certainly.
    I want to recognize the--I thank my friend--and the 
gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. I will have some 
comments to make here in a minute about this discussion you all 
have had.
    Colonel Abrams, I appreciate you being here. On a personal 
note, I am sure you know the great pride people feel for your 
father. My dad--he passed away--but my father was with the 4th 
Armored Division, and you know how we all get, we tell the same 
story several times, but several times through the years with 
great pride he told me that for a period of time that your 
father was his battalion commander and what that meant to him. 
He was a hell of a fighter. I appreciate you being here.
    And, General Kelly, I think I look back, either with 
consistency or the candor or fear, I remember when I enlisted 
in the Marine Corps when they had the 2-year enlistment years 
ago, I put in 21.5 months, as you know, not 21.5 years. But 
before I took the oath, the fellow said to me, young 
lieutenant, ``There are two kinds of Marines: Those that have 
been to Vietnam and those that are going.'' And, apparently, 
the Marine Corps candor and enlistment time has stuck, and I 
appreciate that.
    I thought that the thing that most caught my attention, and 
I really appreciate you all's service and what you have had to 
share, but, General Kelly, is when you said when you came back 
and it did not seem like we were a nation at war, and then you 
very specifically said, with somebody with your experience in 
this town, that it does not seem to be a capital at war.
    I mean, that caught me in the gut, what that means to the 
young men and women to come back here and think that their 
capital is not fighting that same war.
    I said to myself, I suspect if you ask most people up here, 
``How is the fight going,'' they would think, well, it means 
between over the Supreme Court nomination, it means between the 
House Republicans and House Democrats, it means the fight that 
we had a day or two ago in the secret session of the Senate. 
But I suspect if you said, ``How is the fight going,'' just as 
a morning greeting, no one, except for our men and women in 
uniform, would respond with what happened the last 24 hours. I 
think that is pretty sad.
    Mr. Chairman, a lot of us have suggested topics for 
hearings. Mr. Skelton has sent a recent letter on hearings. A 
lot of times we hear, ``Well, it is difficult in the 
schedule.'' You have created a time here this morning, this 
8:30 slot, and I would hope that, in line with General Kelly's 
comment, that this capital would probably be better if we were 
more as a capital acknowledging we were a nation at war. We 
would do better as a Congress.
    The discussion that you just had, you make some good points 
about The Washington Post article. I would encourage you to 
read the full article. I think it is very concerning. But what 
you all just did was a mini hearing. Can we get a commitment 
from you that next week, at some morning, at 8:30, we will have 
a full hearing, you and I choose the witnesses, on Senator 
McCain's amendment that passed 90 to 9, and then we can bring 
in legal experts and have the kind of discussion that keeps 
this, as the sergeant major said, as the righteous ones?
    Can we get some kind of a commitment to use this 8:30 slot? 
Mr. Skelton suggested several topics. I think that we could do 
a better job of providing the kind of oversight that we need, 
particularly on a topic like this that has such controversy 
about it.
    The Chairman. Well, let me just say this to my colleague: 
We spent a lot of time talking about how we needed to have more 
hearings on the prisons and on Abu Ghraib and on Guantanamo. We 
spent more hearing time this past year on Abu Ghraib and 
Guantanamo than any weapons system, than any discussion about 
our troops in Iraq, than any other issue, any acquisition 
program and any other area, to my knowledge, that is within the 
jurisdiction of this committee.
    Dr. Snyder. Mr. Chairman, I did not ask for a hearing on 
Abu Ghraib. I disagree with your analysis of the work this 
committee has done. My request was on Senator McCain's 
amendment. I have got it right here. It is one page. I am not 
talking about recounting what happened at Abu Ghraib. I am 
talking about the language of this amendment, which passed the 
Senate. It is in conference now. It is something that we have 
not even discussed on this committee.
    The Chairman. Well, let me just respond to the gentleman. 
The gentleman asked me a question and I am giving him an 
answer, and I am going to give him, whether he likes it or not, 
my answer.
    And my answer is to review the bidding here, and the 
bidding is that we had, with respect, because this is an issue, 
it was brought up on the Senate side, it is a provision that we 
didn't pass.
    And, incidentally, one thing that is lost in all of this 
discussion, and perhaps some of the senators don't even realize 
this, that working with members on your side, we put in a 
number of reforms last year in the authorization bill that are 
now passed into law. Lots of good stuff with respect to 
oversight of prison systems, with respect to the 
professionalism of the people who maintain in country these 
systems.
    I don't think the folks on the other side even read the law 
that they agreed to and that was signed into conference and 
ultimately signed by the president.
    So this committee has done a number of reforms that I think 
are probably more far-reaching than the language that the 
gentleman is talking about.
    But my point is on this, in this area, we have held a lot 
of hearings, and the other thing that we did was we directed 
and we received voluminous reports that took thousands and 
thousands of hours and involved thousands of hours of 
investigation. Now, we took those reports and we have got a 
number of them in the committee. They are available to any 
member that wants to review them.
    Only a handful of members, with all this information that 
we directed the services to give us, to shine this sunlight, as 
Mr. Reyes says, on these facts, with the millions of dollars 
that the services spent to delivery this to us and that the 
Department of Defense (DOD) spent, I can count on the fingers 
of one hand, I think, and we will check the names again because 
you sign in when you want to review the reports and you sign 
out, I don't think we had more than a handful of members of 
this committee or any committee in Congress that when we have 
done all this work and we presented this big stack of 
investigations, have read them. And any member can go in right 
now and read those if they want to.
    So my answer is that I think we have not only had a 
balanced agenda of hearings, but I think, in a way, it has been 
in fact a little bit imbalanced. And the gentleman, you had 
members who wanted to have a hearing on Guantanamo. We went 
down, we took a CODEL to Guantanamo, we came down, we had a 
full hearing on Guantanamo.
    So there is one provision now that has been offered on the 
Senate side. It is probably going to be manifested in a motion 
to instruct. We are going to have lots of debate on it. And, 
no, I don't think that the amendment that was offered on the 
Senate side, which, incidentally, lots of members voted on not 
even knowing what the current law is with respect to torture, I 
don't think that that requires a full hearing.
    I think we are having a pretty good hearing on it right 
now, right? I have cited to Mr. Reyes the law that is the 
present prohibition against that type of activity. And I will 
tell the gentleman, if there is any accusation of any member of 
DOD or any agency who has violated that law, I will be happy to 
join with them in seeing to it that justice is done under the 
uniform code of military justice or under the Federal statutes 
that relate to those prohibitions.
    Mr. Skelton. Does the gentleman yield?
    Dr. Snyder. I think Mr. Chairman controls the time.
    The Chairman. I would be happy to yield, absolutely.
    Mr. Skelton. Whoever has the time.
    The Chairman. We are having a good discussion here.
    Mr. Skelton. I have a question of Dr. Snyder. The article 
of which you speak is The Washington Post article regarding the 
CIA having secret detainees in secret places; is that correct?
    Mr. Reyes. That is the one that I mentioned. I don't think 
Dr. Snyder mentioned any article.
    Mr. Skelton. The question arises in that regard, what, if 
any, connection the Department of Defense, if any, had with 
that. That would be a proper subject that this committee should 
look into. Do you not agree?
    Dr. Snyder. Yes.
    Mr. Skelton. Thank you.
    Dr. Snyder. Mr. Chairman, may I have some time?
    The Chairman. Absolutely. But let me just say this: Why 
don't we go through our hearing and see if the other members 
have questions that they want to ask of our witnesses, and then 
I will be happy to engage the gentleman at the backend of this 
hearing.
    But let me just say to my friends----
    Dr. Snyder. Mr. Chairman, I don't get any more time?
    The Chairman. No, you are. I will go back and you will get 
all the time you want. But my recommendation is that let's let 
Ms. Davis and Mr. Meeks go through their questions and then we 
will go back to the gentleman. Is that okay? Does the gentleman 
want to take this time now?
    Dr. Snyder. I would like to have whatever time I had 
remaining that I was not speaking, which I think was probably 2 
or 3 or 4 minutes.
    The Chairman. You go right ahead.
    Dr. Snyder. Thank you. Appreciate it.
    The Chairman. In fact, we will give you another 5 minutes.
    Dr. Snyder. That would be fine.
    The Chairman. Okay.
    Dr. Snyder. Here is my concern. I don't want to bait my 
chairman again, I appreciate the discussion, but we have not 
had the kind of hearing, in my opinion, on this side that we 
ought to have. A motion to instruct conferees on the House 
floor is the word, abdication of the responsibilities of the 
House Armed Services at a time of war.
    It is another reflection, in my view, General Kelly, that 
we are not acting like we are a capital at war when we say, 
well, we are going to have an hour-long discussion on the House 
floor on something as important as that.
    There are two issues, in my view, with regard to the 
language, whether it is right or wrong, on Senator McCain's 
amendment.
    One issue, Sergeant Major, is what you said: What do we 
need to do as a nation in our laws, if that is what it takes, 
to be sure that we and the world know we are the righteous 
ones?
    The second issue for me, and it may well be more important, 
is I put myself, if I am sitting here and I come in some 
morning and someone says, ``Guess what? General Kelly and 
Colonel Abrams and the sergeant major were captured, and they 
are prisoner of war (POWs). And guess what? We just got notice 
from whoever captured them, whatever enemy it may be, that they 
are going to treat them every bit as good as the allegations 
that were made in The Washington Post article yesterday 
morning,'' which would include, near as I can tell, being 
stripped naked in a cell so cold that you freeze to death. I 
don't think that is what we are about.
    I think one of the reasons we take the high road is we want 
to send the message out there to everyone, including Silvestre 
Reyes' daughter, we are the righteous ones.
    Number two, we set a conduct, a standard for the world that 
we can absolutely insist that if any of you, God forbid, are 
POWs, you will be treated well. And I think that that 
discussion needs to continue.
    General Kelly, I wanted to ask you, one of the ongoing 
discussions we have had up here, and several of us have asked 
General Myers and the Secretary of Defense several times, about 
the level of troop strength. And we always get the answer that 
any commander, if they need additional equipment, troops, all 
they have to do is ask for it. And yet you recited a scenario 
an hour ago or so in which, clearly, your backs were against 
the wall. People wanted more troops, reserve forces had all 
been utilized.
    Now, that happens sometimes in war. The issue then, I 
think, for us, as a Congress, and us, as a nation, is if that 
situation comes again, do we want you to have available 
resources? And Senator McCain has said for a couple of years 
now that there should have been additional troops in Iraq. Have 
we unintentionally created a system where the word has gotten 
around that the troop strength is going to stay right about 
where it is, it is not going to go up in any dramatic fashion, 
there isn't really any reason to make requests for additional 
troops for any sustained period?
    Have we unintentionally created a system where you all have 
a can-do spirit, you are going to do the best job you can with 
what you have, even though your opinion may be, ``If I had an 
additional 5,000, 10,000, 20,000 troops along the Syrian border 
or in this area, I could do a much better job of achieving the 
goals that the sergeant major outlined so well for the Iraqi 
people.''
    General Kelly. Well, sir, I have been out for over a year, 
but I will tell you this: When the period I described where we 
had literally all of our battalions along the rat line, from 
Fallujah--well, actually, from the northern Babil, Babylon, all 
the way up to the Syrian border, and the rat line being the 
Euphrates Valley where most of our action is, and we had to 
move forces around internally to the division to deal with 
Fallujah and to deal with some of the other things, any other 
places, the commanding general at the time, now Lieutenant 
General Jim Mattis, indeed, asked for an additional regiment of 
Marines to be flown out from Camp Pendleton.
    At the same time, the great 1st Armored Division had been 
moved--was on the way home, frankly, coming out of Baghdad, and 
I forget who was relieving them--were you all? Yes, these guys 
were relieving them. And they got extended another 90 days and 
went down to Karbala, Najaf and fought down there.
    In the meantime, as that Marine expeditionary units, that 
float out and have floated out now for 45 years, floated into 
the Persian Gulf at this period of time, they landed 2 of them 
as the strategic reserve. We never got the 5th Marine regiment 
because by the time, frankly, I mean, we were pretty busy for 
that several week period, but it started to die down. And as 
you know, the war over there tends to go up and down in kind of 
a sign curve.
    But to the best of my knowledge, that request for forces 
was going to be approved. And as I say, you have got a couple 
of Marine expeditionary units out there, about 2,500 strong, 
Marines and sailors. They have been periodically landed when 
additional troops were needed. And as I say, in the case of my 
recollection of the 1st Armored Division, they were extended 90 
days, which, in essence, is a troop increase. Pretty 
disappointing to the soldiers, but, again, you tighten your 
straps, suck it up and I bet they had a pretty high enlistment 
rate coming up. I think they are out of Germany.
    So you always take what you have got and work with it. I 
certainly have never been told outright in my experiences over 
there as a general that we could not have more troops. There 
were a couple times, I mean, that extra regiment certainly 
would have helped, because we were kind of playing ``whack-a-
mole'' a lot of times as we did even Fallujah II, which was 
raging about this time last year. Those forces, to build up 
around Fallujah and go in, had to be taken from another part of 
the country. But you work with what you have.
    And by the same token, I mean, both the Army and Marines 
were trying to manage this deployment, whether you use a year 
or seven months. You manage that. More troops obviously mean 
shorter time at home, but if need be, again, you suck it up, 
you tighten up your crack straps and you move to the sound of 
the gun.
    I don't know if that answers your question, sir.
    Dr. Snyder. Yes.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    And the gentleman from Arkansas wanted to maybe get the 
Army's perspective on that same question. We have got plenty of 
time.
    So, Colonel Abrams, in terms of troop strength, you guys 
were at the heart of the fight. Did you think you had enough?
    Colonel Abrams. Sir, I would echo the general's comments. 
There are times at the tactical level on a daily basis where 
another battalion would have been handy. And those things 
happen. But, generally speaking, as the General outlined, the 
manning strategy is appropriate for the campaign that is being 
led by General Casey, and troop level strength are really those 
decisions that need to be made at his level.
    Having said that, internally, to the division, I can tell 
you, more than once, when a brigade combat team, and in my 
case, specifically, I needed some additional help for a longer 
duration, I was able to ask for it and I was able to get it 
inside the 1st Cavalry Division and Multi-National Corps Iraq, 
and in fact one full infantry was attached to me from about the 
10th of August 2004 for about 6 months.
    So, sir, if you are suggesting that there is a culture that 
is developing that says, ``Hey, just live within your means, 
and it is not encouraged to speak up when you need additional 
troops,'' I would say that that is not my experience.
    The Chairman. Okay
    Thank the gentleman.
    The gentlelady from San Diego, Ms. Davis.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    Thank you to all of you for being here, for your 
commitment, your sacrifices, your leadership, really, because I 
think that is what extends to all the men and women who are 
serving right now, and the example you set is so important to 
them. So I appreciate that greatly, and thank you.
    I think, Mr. Chairman, in many ways, I mean, this hearing 
today has been a really fine example of the work that the men 
and women in uniform are doing, and I think that is because--
really, I think our comments really go to the heart of that, 
because what worries all of us, on different occasions and in 
different hearings, is the fact that we know things are 
distracting from that effort and detracting your ability and 
the ability of people on the ground, in Iraq, Iraqi soldiers, 
to do the job that they want so desperately to do.
    I would like you to talk a little bit about that and the 
impact, if anything, that that has.
    You mentioned so beautifully, I think, Sergeant Major, that 
you would much rather, and the men and women would much rather 
see the grass grow than cut it down. And yet we know that many 
of the reconstruction projects have gone badly. To what extent 
does that hurt morale.
    I would like you to talk a little bit about the work that 
you have done with the Iraqi soldiers and their leadership and 
how that is going, in your estimation. We know how important 
that is. How do you define success in that regard, and is there 
a problem? To what extent is the fact that they have such 
inadequate equipment, in many cases, in contrast to ours? And I 
am glad that we have much better equipment than we had starting 
out, but we know that we are still losing a heck of a lot of 
Iraqi soldiers as well who are in the fight and want to secure 
their country.
    Could you talk some about that and what efforts have gone 
wrong, have gone badly, have really distracted from your 
efforts as well?
    General Kelly. I have just, again, been out a year, but I 
read the reports and talk to the commanders fairly frequently, 
particularly when they come back. As far as the Iraqi security 
forces, I mean, what always surprises is they keep coming, they 
keep getting killed, a lot of them, they keep getting blown up 
by suicide bombers, but there is no lack of enthusiasm on their 
part to get in the fight.
    When I was there we were just starting to train them. I 
mean, it has taken a long, long time to make the Marine Corps 
and the Army and, for that matter, the Air Force and the Navy 
that the United States of America is. You don't do it 
overnight. It takes 20 years to grow a battalion commander. It 
takes 7 or 8 years to grow a company commander. It takes 15 or 
20 years to grow a sergeant major. So these things don't 
happen, by any means, overnight.
    But I can report that the forces that are operating 
alongside the Marine forces in Al Anbar, which is, like most of 
the country, fairly dangerous or very dangerous, they are 
operating pretty well in terms of the low level. They still 
have their training wheels on, so to speak, but they are out 
and about doing their own independent work now. We have 
instructor teams or advisor teams with them.
    But, again, it will take some time before they are able to 
operate kind of at a battalion level. One of the things they 
still need is that knowledge that if they really get in kind of 
a difficult position, there are soldiers or U.S. Marines--U.S. 
Army, U.S. Marines ready to help them out.
    We have an awful lot of great officers and non-commissioned 
officers (NCOs), staff NCOs from the Marine Corps and the Army 
that are now kind of embedded with these units and advising 
them, much like we did in Vietnam, and it was a very successful 
program there.
    Ms. Davis of California. May I ask you, sir, do they feel 
that they have the training, I guess, the cultural training 
and, to a certain extent, to be able to do that job to the best 
extent of their abilities?
    General Kelly. I think so. I mean, the language barrier is 
always there, but, I mean, you make do in terms of interpreters 
and things like that. But, generally speaking, as I say, the 
progress is moving forward.
    I don't know if the other gentlemen want to comment.
    Colonel Abrams. Ma'am, again, my experience was two Iraqi 
and troop battalions under my tactical control, and I echo the 
general's comments, that in the span of a year with our 
embedded trainers, they went from platoon to company, to 
independent battalion level operations. It took some time to 
find the right leaders, but we found them. They are absolutely 
coachable. They respond. They have developed an incredible bond 
with my sister battalions that I had partnered them up with.
    They are fearless fighters. We fought alongside our 
soldiers daily. Had no problem having mixed squads in the back 
of a very cramped Bradley--three Iraqis on one side, three 
Americans on the other. Dismount Iraqi squad leader on one side 
of the street, American squad leader on the other. So we found 
them to be very, very capable. They are underequipped, and I 
know that that is a work in progress.
    But just to keep things in perspective, as many of you 
know, as we are modularizing our Army and we are creating some 
new brigade combat teams, one of which, sir, at El Paso Fort 
Bliss, our 4th Brigade Combat Team, ``Long Knife,'' just stood 
up, activated on the 18th of October. That brigade starts from 
scratch. Brand new soldiers are graduates of advanced 
individual training (AIT), 16-week course. They have got 
leaders from across the Army.
    Over the span of the next year, we are going to equip them, 
we are going to man them, and we are going to put them through 
very deliberate training paces, culminating with a mission 
exercise.
    At the end of that year, we are going to declare them ready 
for combat and we are going to deploy them. And they are doing 
that in the United States, out of contact. These Iraqi Army 
battalions are basically doing the same thing, all the while we 
use them every day as part of combined operations in theater. 
So they are learning as they go, but that is a function of the 
environment, because we need to use them, we need to have an 
Iraqi face on operations. And they are eager for it.
    But they will also be the first ones to tell you that they 
need our help, and when they get in a pickle, like the general 
said, if they need a platoon of Bradleys, they need to call and 
get a platoon of Bradleys to come bail them out. But it is just 
going to take a little time. But I think their progress is on 
track.
    Ms. Davis of California. Could you, sir, respond also to 
the question in terms of the contracting and the building that 
soldiers are doing?
    Colonel Abrams. Ma'am, we got there in March of 2004. The 
coalition provisional authority (CPA) was still in position. We 
hadn't transferred sovereignty and so forth. But I think that 
is history now. I think what is maybe coming out now is 
history.
    In my personal experience, when I left, again, March of 
this year, those major reconstruction projects were well on 
their way and in many places nearing completion. One 
particular, very high profile, at least for east Baghdad, was a 
sewage treatment plant at Rustamiyah, which is on the east side 
of the Tigris River that treats all of the raw sewage east of 
the Tigris River. So it takes care of the sewage for about five 
million people. It had not been in operation for over 10 years.
    And so it took about 16 months to repair, and about a month 
after we left they opened it up for business, and for the first 
time in anyone's memory that they can remember the sewage is 
actually flowing out of places like Sadr City and the district 
next to it and off the Karada peninsula, and it is actually 
being treated before it goes and it is put back into the Diyala 
River and feeds into the Tigris.
    So my experience is, is that by the time we left those 
large-scale projects, at least in my area, were well on their 
way, and there was an immediate impact, and the people knew it.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chairman. My time is up.
    The Chairman. Okay. I thank the gentlelady.
    Gentleman from Florida, Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    General and Colonel, Command Sergeant Major, it is a 
pleasure having you before the committee. Great opening 
statements of what the men and women are doing out there in the 
field.
    I know we had a little discussion--I had to run to a 
meeting, Mr. Chairman, and got back and found that you were 
still on the top row, so I am sorry I missed the fireworks.
    The Chairman. Well, we try to entertain everyone.
    Mr. Meeks. Okay.
    The Chairman. The only thing I am worried about, Mr. Meeks, 
is I am going to be out with Mr. Reyes pretty soon, and I don't 
want his family to be giving me a wire brushing when I get out 
there. They are always so nice to me.
    Mr. Meeks. Well, Mr. Chairman, I walked in and I saw our 
panel sitting back in their chairs. I said, ``Oh, wow, must be 
something good going on here.''
    But I must say, Mr. Chairman, there were two trips to 
Guantanamo.
    I want to say that the discussion that was taking place 
here that I thought that was meaningful because we need to talk 
about these things as a committee. We need to know more about 
what we are doing, and I think the comments that were made that 
if one of our men or women are captured, we want to be able to 
wear, if not a white hat, a gray hat, saying, ``Treat them as 
though we would treat yours if we caught them.''
    And all of the good, and Command Sergeant Major, I heard 
you speak very passionately about what the men and women are 
doing, all of you, the projects that are going on in Sadr City. 
I mean we get this information on the committee but when we 
have events and instances, above your head and our head, in 
many cases, where it is found that these individuals are not 
within our interpretation, that they don't fall under the 
Geneva Convention, whatever that may be as it relates to 
Afghanistan, it sends a message out there even though we are 
doing good. Abu Ghraib sends a message out there, and we have 
to deal with it in an appropriate way.
    Mr. Chairman, you have shared with us before that military 
justice would be taken out on behalf of those individuals that 
tolerated that kind of activity and the world saw that, but it 
is not the thing that is on the six o'clock news. It is not the 
latest, like you say, car bomb that went off or mortar that hit 
one of our bases.
    I want to just ask one--well, a couple of questions. 
Recently, we passed--last year, matter of fact, we passed 
legislation that would reimburse military families for items 
that they bought for men and women, be it night vision goggles 
or body armor, what have you. There was a great debate here 
just about a month ago with the Defense Department because the 
regs were not written that were supposed to be written in 
February of this year to give some instruction to military 
families on how they can be reimbursed.
    Is that message getting out to the field, to the men and 
women, that they can tell their family members that they can 
get their money back for their supplies or the equipment that 
they bought with their own money?
    General Kelly. It is in the Marine Corps, but I also have 
to add that just because someone feels as though they need 
someone, particularly if they have never been to a war, just 
because they decide they need something and they run down and 
purchase it, like the latest quick draw holster, in spite of 
the fact that this person may or may not be armed with a 
holster or with a pistol, they go down--I mean, they are 
cautioned about buying things because they may or may not need 
them.
    But, yes, sir, within the limits of the legislation or the 
regulations, we have made a great effort to get people 
reimbursed for what they bought. But by the same token, again, 
it is pretty specific as to what can be reimbursed.
    So I don't know if that answers your question. I certainly 
can't speak for the Army.
    Mr. Meeks. Let's just say body armor, for instance, when 
they didn't have enough body armor, Kevlar, to go around, and 
military families heard that their loved ones didn't have what 
they needed and they----
    General Kelly. Speaking for the Marine Corps, no Marine 
crossed into Iraq without wearing the body armor that we all 
wear, with the small arms protective inserts (SAPI) plates, 
with the flack jackets. What we found, and, again, I have 
enumerable letters from Members of Congress on this issue, what 
frequently happened was as Marines and sailors were deploying, 
they would mention to their parents or their parents might ask, 
``We have not yet received any body armor.''
    Shame on us for not making them understand that they were 
going to get the body armor in Kuwait before they went into 
Iraq. But no Marine went into Iraq without body armor. And the 
body armor, and I don't know what types they might have been 
buying, but the SAPI plates, the ceramic plates, are not 
available on the open market, or at least weren't when we were 
going into Iraq.
    So, again, shame on us for not instructing the young men 
and women that they would not be going north into the fray 
unless they had on sufficient body armor.
    Mr. Meeks. Are you giving the notice to those that did have 
to buy the equipment that falls under what Congress has said 
that they could be reimbursed for?
    General Kelly. Absolutely.
    Mr. Meeks. Okay. So that message is getting out.
    General Kelly. Absolutely.
    Mr. Meeks. Okay.
    Same for the both of you?
    Major Citola. Sir, same for the Army, and we pushed the 
criteria for reimbursement all the way down to the lowest 
levels--every company, battery and troop. But, sir, to a man 
and woman in the 1st Cavalry Division, none of them had the 
Kevlar or body armor or the ceramic inserts.
    Mr. Meeks. Well, it was going on somewhere, gentlemen. I 
mean, someone bought something that they needed, because they 
didn't have it or they didn't have enough of it. Matter of 
fact, that is the reason why we acted. So I just want to make 
sure that that is getting out to them.
    Another point of encouragement I just want to add, I had an 
opportunity to speak just yesterday with the command sergeant 
major of the Marines, and we were going to take a trip together 
but our schedules ended up being cross-wired.
    We want to make sure that the folks in the field--I was on 
the floor recently and one of my colleagues was speaking of a 
lot of the discussion that is going on now here on the Hill: 
When we knew what, good information or bad information? This is 
a discussion of the country.
    I wouldn't want our men and women in the field to feel that 
those that question the reason why or the information that was 
given to Members of Congress. I wasn't a member when the 
decision was made to go to war, but I do know that in our 
democracy we have the discussion. I don't want them to feel 
that we are leaving any of them behind.
    One member said, ``It is their war.'' It was my correction 
to them that it is our war. Like it or not, we have to make 
sure that we do what we need to do. From the position of policy 
makers and those that are making executive decisions, we have 
to have discourse. We have to have discourse, because we have 
to make sure that we can hopefully one day get a coalition in 
that region of the world to come together to take on some of 
the responsibilities that the 158,000 men and women that are 
wearing the flag on their shoulder right now are doing.
    So I commend you all for coming before the committee. I 
wanted to make my business of being here this morning after 
dropping my kids off to school to hear what you had to say, but 
I can tell you that it is important that we have the 
interchange. The chairman and I know, I mean, we have had 
interchanges before, but, you know, it is not personal, it is 
just business, and we have to make sure that we have that kind 
of discourse in this committee.
    And I hope that you can pass that on to the men and women 
that are serving out there. Sometimes they may not understand 
why we are even questioning some of the things that we are, but 
it is important so that we can protect them and we can also 
make sure that the American taxpayer is getting the kind of 
oversight that they deserve.
    With that, Mr. Chairman, I want to thank you for calling 
this hearing, and I look forward to participating in more 
hearings like it.
    The Chairman. Well, I thank the gentleman and thank him 
also for the great attention, extraordinary attention that he 
paid to Guantanamo too, because he was working that issue 
before we had lots of other folks focused on it. And thank him 
for his contribution.
    And thank all the members and, gentlemen, we are the Armed 
Services Committee and we have lots of opinions and lots of 
positions, and we are all independent contractors. But we all 
unite and stand on the common ground of supporting you.
    So thank you for your comments today and this discussion. I 
think it has been very insightful and it is informative to us, 
instructive.
    You know, what is great about the fact that the services 
have combat leaders like you available here on Capitol Hill and 
working on Capitol Hill. What that means is, we should have 
some real insights into how we do our job in terms of preparing 
and equipping and funding and overseeing the armed forces. This 
helps us a lot. It is a lot better than getting reports from 
the field to have people from the field before us.
    Give our best to the folks that wear the uniform of the 
United States. They are our best citizens, the best ones we 
have. They come from those middle class backgrounds that the 
gentleman talked about, but they really are--General Kelly 
talked about people coming from middle class backgrounds, but, 
you know, they are America's royalty. That is our idea of 
royalty.
    And we appreciate you very much. Thanks for your testimony 
and we look forward to talking to you a little bit later and 
taking some of this instruction that we have received in a 
number of areas just listening to your testimony and see if we 
can't translate that into some good policy here as we move 
forward.
    So thank you.
    And the hearing is adjourned.
    [Whereupon, at 10:56 a.m., the committee was adjourned.]


=====================================================================




                            A P P E N D I X

                            November 3, 2005

=======================================================================



======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 3, 2005

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 32992.001

    [GRAPHIC] [TIFF OMITTED] 32992.002

    [GRAPHIC] [TIFF OMITTED] 32992.003

                                  <all>

</pre></body></html>
